<html>
<title> - [H.A.S.C. No. 112-90]A DAY WITHOUT SEAPOWER AND PROJECTION FORCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-90]

 
                       A DAY WITHOUT SEAPOWER AND
                           PROJECTION FORCES

                               __________

                             JOINT HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                        MEETING JOINTLY WITH THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 3, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
71-529                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  
  

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                    W. TODD AKIN, Missouri, Chairman
DUNCAN HUNTER, California            MIKE McINTYRE, North Carolina
MIKE COFFMAN, Colorado               SUSAN A. DAVIS, California
SCOTT RIGELL, Virginia               JAMES R. LANGEVIN, Rhode Island
TIM GRIFFIN, Arkansas                RICK LARSEN, Washington
STEVEN PALAZZO, Mississippi          JOE COURTNEY, Connecticut
TODD YOUNG, Indiana                  CHELLIE PINGREE, Maine
ROSCOE G. BARTLETT, Maryland         MARK S. CRITZ, Pennsylvania
J. RANDY FORBES, Virginia            HANK JOHNSON, Georgia
ROB WITTMAN, Virginia                BETTY SUTTON, Ohio
TODD RUSSELL PLATTS, Pennsylvania
                Tom MacKenzie, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                 Mary Kate Cunningham, Staff Assistant
                                 ------                                

                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                 Jamie Lynch, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                    Nicholas Rodman, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, November 3, 2011, A Day Without Seapower and Projection 
  Forces.........................................................     1

Appendix:

Thursday, November 3, 2011.......................................    31
                              ----------                              

                       THURSDAY, NOVEMBER 3, 2011
              A DAY WITHOUT SEAPOWER AND PROJECTION FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     3
Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     5
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     3

                               WITNESSES

Clingan, VADM Bruce W., USN, Deputy Chief of Naval Operations for 
  Operations, Planning and Strategy (N3/5).......................     6
Hesterman, Maj Gen John W., III, USAF, Assistant Deputy Chief of 
  Staff for Operations, Plans, and Requirements (A3/5), U.S. Air 
  Force..........................................................    10
Mills, LtGen Richard P., USMC, Deputy Commander for Combat 
  Development and Integration, Marine Corps Combat Development 
  Command........................................................     7

                                APPENDIX

Prepared Statements:


    Akin, Hon. W. Todd...........................................    35
    Clingan, VADM Bruce W........................................    38
    Forbes, Hon. J. Randy........................................    36
    Hesterman, Maj Gen John W., III..............................    61
    Mills, LtGen Richard P.......................................    54

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................    75
    Mr. Larsen...................................................    75

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................    82
    Mr. Forbes...................................................    81
    Mr. Palazzo..................................................    86
    Mr. Schilling................................................    83
    Mr. Scott....................................................    85
              A DAY WITHOUT SEAPOWER AND PROJECTION FORCES

                              ----------                              

House of Representatives, Committee on Armed Services, Subcommittee 
           on Seapower and Projection Forces, Meeting Jointly with 
  Subcommittee on Readiness, Washington, DC, Thursday, November 3, 
                                                              2011.
    The subcommittees met, pursuant to call, at 11:42 a.m. in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the Subcommittee on Readiness) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Good morning. We would like to call this joint 
hearing to order.
    Mr. Akin, we understand, is on his way, and he will take 
over the gavel as soon as he gets here.
    But I want to thank Chairman Akin for co-chairing this 
hearing and thank all of our members and the distinguished 
panel of experts and welcome them to today's hearing focused on 
what the future of seapower and projection capabilities may 
portend in an era of austere budgets.
    I am sure that Chairman Akin will note his appreciation for 
all of our witnesses being here, and I want to just say how 
much we appreciate your service to our country and your taking 
time today to bring your expertise and experience to all the 
members of this subcommittee.
    I believe it is vital that you are all here today to 
continue to inform the members of these subcommittees and the 
public in advance of the ``super committee'' [Joint Select 
Committee on Deficit Reduction] delivering its ultimate 
recommendations to the Congress.
    I am going to keep my remarks short in order that we 
proceed to the heart of the discussion. The Readiness 
Subcommittee has convened numerous times in the past few months 
to hear from each of the services, and most recently the vice 
chiefs, regarding the current state of the force, the increased 
risk and the uncertainty of the future and potential impacts to 
military readiness if sequestration were enacted.
    While there seems to be a prevailing consensus that 
sequestration, under the Budget Control Act, would be 
devastating to the military, I remain severely concerned that 
we have already gone too far.
    Last year, when the DOD [Department of Defense] began 
closing Joint Forces Command without any predecisional 
analysis, I told members this would soon be coming to a theater 
near you.
    Well, currently, we are dealing with the $465 billion DOD 
cuts that was arbitrarily made without analysis to underpin 
that number. Now another shoe has dropped with regard to 
civilian personnel. The Air Force announced just yesterday that 
they will eliminate 16,500 civilian positions in fiscal year 
2012. That is just the Air Force and only one fiscal year.
    What happens when the other shoe drops or if it drops under 
sequestration?
    With all these individual decisions, the cumulative effect 
will be devastating. At this point, I would say get ready. The 
show is only just beginning.
    This leads me to reiterate my concern regarding additional 
short-term decisions that could lead to the potential hollowing 
of the force under sequestration. That would be a situation 
that cannot be quickly reversed.
    General Dunford articulated this very point before the 
Readiness Subcommittee last week regarding concerns that we 
will make these cuts without any adequate appreciation of the 
strategic implications.
    The implications on our readiness are the implications of 
breaking faith; and also, that folks would think that, if we 
get it wrong, ``Well, we can just simply fix it in a year or 
two.''
    That is not possible, particularly in the latter category. 
And if we break the trust of our marines, sailors, soldiers and 
airmen today, it would be decades before we get it back.
    The question I continue to ask is what is the risk to the 
national defense of our country if we continue to make some of 
the cuts to defense we are hearing being discussed in 
Washington?
    There are never enough resources to eliminate all of our 
risk, but there must be a strategic assessment to underpin the 
decisions. Instead, I feel that, currently, the DOD is just 
responding to budgetary pressures the result of which could 
severely degrade the military's ability to operate.
    In Vice Admiral Clingan's written testimony for this 
hearing today, he indicates, without question, the fleet is 
operating now at an unsustainable level.
    To best meet the combatant commander's need for deployed 
Navy forces since September 11, 2001, and to respond to 
emergent requirements, we have increased the frequency and 
average length of unit deployments.
    This has resulted in reduced training time, reduced 
maintenance availabilities, a narrowing of predeployment 
training for certain units to mission-specific tasks, and an 
accelerated aging of our ships and aircraft.
    Consistent with the testimony that Vice Admiral Burke 
provided before the Readiness Subcommittee, the Navy has been 
operating in a sustained surge, precluding the opportunity to 
do deep maintenance on fleet assets. How will that impact the 
future force? Looking forward, will our forces be ready for the 
mission they are called upon to do when the time comes?
    While there are many contributing factors that brought us 
to this point today, we are currently at a crossroads where we 
have time yet to prepare for the many tough decisions that lie 
ahead.
    In doing so, we must not forget our obligation to ensure 
our men and women in uniform are given all the tools necessary 
for the job we ask them to do.
    I look forward to learning from each of our witnesses about 
how we cope with these challenging fiscal times while also 
maintaining a ready military.
    At this time, I would like to recognize my good friend, the 
representative from North Carolina, Mr. McIntyre, for any 
opening remarks he might have and pass the gavel to Chairman 
Akin.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 36.]

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you very much.
    I thank the chairman. Thank you, Mr. Forbes and to Mr. 
Akin, and thank them for their leadership.
    I also want to thank the witnesses for taking time out of 
your schedule to be with us today and to even come and meet 
with us yesterday and other days that you have met with us 
personally when we have had questions or had concerns and you 
have been proactive in raising the awareness of the concerns 
that our military has with regard to this budget.
    It is becoming clear that, as we draw down from Iraq and 
Afghanistan, the demand for maritime presence and force 
projection will increase.
    We must ensure that our troops are available to quickly 
respond to crises around the world. As we know also, there will 
be times that we are called upon to offer humanitarian 
assistance in disaster situations and to help protect and keep 
open economic trade lanes by maintaining peace operations.
    I am concerned, very concerned about the impact that large 
defense cuts will have on U.S. national security. DOD has given 
more than their fair share in budget cuts already. And if 
further cuts were implemented beyond those in the Budget 
Control Act, our great Nation possibly could be jeopardized in 
terms of its status as the global power that is preeminent.
    I look forward to hearing the witnesses discuss the current 
missions we are executing in our combat AORs [Areas of 
Responsibility] and elsewhere around the world. More 
importantly, I would like to hear which of these missions would 
be compromised if we faced the inevitable situation that we 
hope will not face by November 23rd or ultimately December 
23rd.
    Thank you. Thank you to the witnesses for your service.
    Thank you, Mr. Chairman.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
    CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

    Mr. Akin. [Presiding.] Thank you very much. I appreciate 
it.
    And thank you, Randy, also for sitting in for me here. I 
was caught on the telephone. I think we ought to get rid of 
those gadgets.
    So, if we could, I would like to back up a little bit, 
start the meeting with a prayer, if I could. Father, we thank 
you for the people who serve us in uniform, and we just ask 
please now for your wisdom as we take a look at the decisions 
that we need to be making in this Nation. And I ask your 
blessing on everybody here and help us to make good and wise 
decisions. I pray in Jesus' name. Amen.
    Just to put things simply, and I want to try to get to the 
right altitude here, we have already taken $450 billion in cuts 
to military just in the last year or so. Now, $450 billion is 
more than normal paycheck that I know what to do with, so what 
does that amount to? I want to try and put that in perspective.
    First of all, we have a Marine general. I think you are 
talking about $100 billion maybe for a year to run the United 
States Marines. Is that roughly right? So $450 billion cut that 
we have already taken would be the equivalent of 4\1/2\ years 
for the entire Marine Corps budget, right?
    Let us shift over now. Let us talk about aircraft carriers. 
We have, I believe, 11 aircraft carriers. We don't lose them 
too often, they are considered important. How many would $450 
billion buy; about what, maybe 45 aircraft carriers? That is a 
long string of aircraft carriers.
    That is how big the cuts we have already taken are, and now 
there is discussion about cutting more.
    And so the point of this hearing is to say, ``When is 
enough already in terms of cuts?''
    Now, just to put some things onto some graphs, we have a 
couple of graphs that I think are very important for people to 
be aware of. The first is this one here, and it is on the 
chart. Basically it shows, as a percent of GDP [Gross Domestic 
Product] how much we have spent on defense through the years, 
and also as a percent of GDP what we are spending on various 
things that politicians call entitlements.
    The red line is the entitlements. The blue line is defense. 
What you see is we are spending a whole lot less of the 
American dollar on defense than we used to. That is the first 
one.
    The second chart that I think is somewhat--no, I don't want 
to do that chart. I want to do that other one about the number 
of planes and men in uniform. Okay.
    If you make a comparison to where we were in 1990, the 
number of people in uniform, the number of aircraft and the 
number of ships, what you see is, is that we are running about 
50 percent just in sheer numbers of where we were in 1990.
    So we are already at half strength from 1990, and now we 
are talking--that is before the $450 billion budget cut. And if 
we take more budget cuts, what is that going to mean?
    I am very uncomfortable with those numbers, but I am not 
the expert. We have the experts right here with us this 
morning.
    I would hope each of you gentlemen would first of all at 
least follow somewhere in your presentation, one, this is the 
purpose of what my branch of service is about; and then second 
of all, if you take this money away, how is that going to 
degrade our ability to do the mission that you have been 
assigned to do?
    With that, I am going to conclude my opening remarks and go 
to the wonderful lady from Guam, Madam Bordallo.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 35.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, and 
Chairman Forbes. Thank you for scheduling this hearing. And I 
am glad to join my colleague and my good friend Congressman 
McIntyre.
    I also want to welcome each of our witnesses this 
afternoon.
    And, General Hesterman, I congratulate you on your new 
appointment as the military deputy for readiness in the Office 
of the Under Secretary of Defense for Personnel and Readiness.
    Today we continue our discussion on the implications of the 
defense spending reductions resulting from the passage of the 
Budget Control Act, as well as the possible implications if 
sequestering occurs.
    As I have stated in previous hearings, I do not believe 
sequestration needs to occur. In fact, I believe former Senator 
Simpson, Erskine Bowles, and others got it right when they 
indicated that the so-called super committee cannot fail. 
Everything must be on the table to achieve a balanced result 
that helps put American finances back on track.
    So that said, I believe our sea and air-power projection 
capabilities are vitally important as we understand the threats 
that we will be facing in future years.
    This is particularly important for my constituents in Guam. 
Our naval and Air Force long-range strike capabilities are what 
to a greater extent provide stability in the Western Pacific. 
The tyranny of distance in the Pacific makes these capabilities 
invaluable.
    Recently, Secretary Panetta visited our allies in Asia to 
discuss a range of issues, and I commend Secretary Panetta for 
his comments while he was in Asia. Time after time he 
reiterated the importance of Asia-Pacific to the U.S. military 
and our greater national security and economic interests.
    He further stated how important it is that no matter what 
happens with regards to current or future budget reductions, 
that we at least maintain, if not grow, our military presence 
in Asia-Pacific.
    Secretary Panetta stated, ``Most importantly, we have the 
opportunity to strengthen our presence in the Pacific, and we 
will.''
    I believe that is the right approach for our country to be 
best postured to address current and emerging threats. I hope 
that each of our witnesses this afternoon will be able to 
comment on the importance of power projection or long-range 
strikes if we are to maintain a constant and significant 
presence in Asia-Pacific.
    Specifically, how important is the development of a next-
generation bomber to our presence in the Pacific? What 
additional capabilities could this asset provide us in the 
Asia-Pacific region? Further, what strategies are being 
employed to manage the program in a cost-effective manner?
    For our friends in the Navy and the Marine Corps, I hope 
you can each comment on the impact that tyranny of distance has 
on power projection. What is needed to overcome the tyranny of 
distance? There has been some discussion, particularly by our 
friends in the Senate, of pulling back most of our military 
forces from abroad to bases back home; or whether we even need 
a forward-deployed presence.
    I hope our witnesses can discuss the strategic value of a 
forward-deployed presence, particularly in the Asia-Pacific 
region.
    Finally, many of those in think tanks are suggesting that 
our next conflict will be a maritime and air battle concept. I 
remain concerned that budget cuts, because of the Budget 
Control Act, will unduly target the operation and maintenance 
accounts, and specifically the training accounts.
    How are the Navy and the Marine Corps going to approach 
this matter? The wars in Afghanistan and Iraq were primarily 
land based, so what will we need to do to achieve a certain 
level of readiness for our Naval and Marine Corps forces? How 
important is amphibious landing capability to an expeditionary 
Marine Corps?
    I hope that each of these matters can be addressed at this 
hearing, and I thank each of our witness, and I look forward to 
your testimony.
    Thank you, Mr. Chairman.
    Mr. Akin. Thank you very much for your opening statement as 
well.
    Now we are going to go to our witnesses. And first off is 
Vice Admiral Bruce Clingan. He is the Deputy Chief of Naval 
Operations for Planning and Strategy.
    And so, Bruce, fire away, sir.

STATEMENT OF VADM BRUCE W. CLINGAN, USN, DEPUTY CHIEF OF NAVAL 
    OPERATIONS FOR OPERATIONS, PLANNING AND STRATEGY (N3/5)

    Admiral Clingan. Thank you, Chairman Akin, Chairman Forbes, 
Ranking Member McIntyre and Ranking Member Bordallo and members 
of the subcommittee. We thank you for the opportunity to 
testify today.
    I am proud to represent 625,000 sailors and civilians that 
are serving on Active Duty in the Navy today, a testament to 
your support today, and which makes the topic of today's 
hearing hypothetical, thankfully, as opposed to historical.
    I look forward to assisting you to ensure that our Navy 
remains fully capable of providing America offshore options to 
protect and advance our national interests in an era of 
uncertainty and fiscal challenges that must be addressed.
    As it has for more than 200 years, our Navy today delivers 
credible capability for deterrence, sea control, and power 
projection, to prevent crises, contain conflicts, and win our 
Nation's wars.
    We remain forward at the maritime crossroads, protecting 
the interconnected systems of trade, information and security 
that underpin our Nation's economic prosperity.
    This prosperity requires free access to the global commons, 
in particular the maritime air, space, and cyberspace commons 
where the Navy operates today, which are increasingly 
threatened by both state and non-state actors.
    Significant concerns have been voiced regarding the impact 
of the Budget Control Act on the Navy's future ability to 
fulfill its fundamental responsibilities. There is no doubt 
that the evolving security environment, characterized by 
systems designed to neutralize our advantages in both space and 
cyberspace; proliferation of sophisticated weapons intended to 
prevent freedom of action in those global commons; aggressive, 
coercive and assertive states, unfettered by international 
norms; and persistent attacks by violent extremists. All of 
these characteristics of the future security environment pose a 
growing challenge to our national interests.
    And all of these characteristics demand a ready Navy that 
can rapidly and effectively respond to diverse crises with 
efficient offshore options ranging from humanitarian assistance 
to high-end, high-intensity combat operations against a very 
capable adversary.
    The risk to successfully accomplishing such missions today 
is significant and the impact of the Budget Control Act before 
sequestration would push this risk to the manageable limit. 
Tough choices will have to be made as we balance this risk and 
distribute it across the Navy's portfolio and as we endeavor to 
ensure that we are manned, trained, and equipped to fulfill our 
obligations to the Nation.
    While we anticipate being resourced at a level that will 
never result in a day without seapower, I am eager to answer 
your questions as we contemplate adjustments that move the Navy 
in this direction.
    Thank you.
    [The prepared statement of Admiral Clingan can be found in 
the Appendix on page 38.]
    Mr. Akin. Thank you, Admiral.
    Our next witness is going to be Lieutenant General Richard 
Mills, Deputy Commander for Combat Development and Integration 
at the Marine Corps, Combat Development Command.
    General Mills.

STATEMENT OF LTGEN RICHARD P. MILLS, USMC, DEPUTY COMMANDER FOR 
    COMBAT DEVELOPMENT AND INTEGRATION, MARINE CORPS COMBAT 
                      DEVELOPMENT COMMAND

    General Mills. Thank you, sir.
    Chairman Akin, Chairman Forbes, Ranking Members McIntyre 
and Bordallo, members of the subcommittee, thank you very much 
for the opportunity to appear before you today to discuss the 
importance of seapower and projection forces.
    More importantly, thank you for the tremendous support you 
provide to your marines on a daily basis, both here at CONUS 
[Continental United States], while embarked aboard ship, and in 
combat overseas.
    As we plan for the years ahead, we see a world of 
increasing instability and conflict. It will be characterized 
by poverty, competition for resources, urbanization, 
overpopulation, and extremism. Failed states may indeed become 
safe havens for terrorists, insurgents, and criminal groups 
that directly threaten the United States and our allies.
    There is no doubt that these trends will exert a 
significant influence on future security environments. History 
tells us that we never know when crisis, conflict or security 
challenges will occur, but it also tells us we know they will 
occur. It also tells us the price we will have to pay if we are 
unable to respond to them quickly, effectively, and reasonably.
    While the character of the future security environment 
continues to evolve and change, our Nation's requirement to 
maintain a forward-based force in readiness has not changed and 
in fact has never been stronger. Forward-deployed forces are 
important for a myriad of reasons.
    First, physical presence matters. It demonstrates our 
economic and military commitment to a particular region. It 
deters our adversaries. It ensures our friends. Crisis response 
matters, and crisis response is frequently measured in hours, 
if not in minutes. Embassies are threatened. Americans are put 
in danger. Disasters occur. Time is critical. Flexible options 
are critical.
    When the marines rescued a downed American pilot shot down 
in Libya earlier this year, the marines did so from amphibious 
shipping in the Mediterranean, with the rescue completed within 
3 hours of notification. Without our forward presence, that 
situation would have turned out dramatically differently. 
Imagine how the situation might have changed had Gadhafi in 
fact captured a U.S. aircrew.
    Earlier in the year, within 20 hours of notification of the 
tsunami, forward-deployed marines arrived in Japan to conduct 
humanitarian assistance and disaster relief missions. Crisis 
response cannot be adequately accomplished in the United 
States. By its very nature, it requires a forward presence that 
our naval forces are uniquely positioned to provide. We are the 
Nation's away-team ready to respond to any crisis.
    The Nation must have forward-deployed marines ready to 
respond to crisis. Indeed, I believe that the phrase, ``The 
marines have landed and the situation is well in hand,'' means 
more than just kinetic success. It means that people struck by 
disaster quickly see the United States flag helping them. It 
means that a stable, capable force under the United States flag 
is on hand to assist in any number of crisis situations.
    Ultimately, it means people overseas thankful to the United 
States for the help they receive.
    The demand for amphibious forces has never been greater. 
Flexibility has been the key. This year alone, your Marines 
partnered with the Navy have fought an aggressive, full-
spectrum counterinsurgency operation in Afghanistan and we 
continue to fight there today. Partnered with allied forces 
engaged in missions at every geographic combatant commander's 
area of responsibility, we train with our allies.
    We have conducted foreign humanitarian assistance and 
disaster relief missions in Pakistan, in Haiti, in the 
Philippines, and in Japan. We have executed maritime security 
operations to ensure freedom of navigation along sea lines of 
communication. That includes the recapture of the vessel 
Magellan Star and the rescue of its crew from Somali pirates.
    The Marines have rapidly reinforced U.S. embassies 
overseas, in Haiti, in Guinea, in Kazakhstan, and in Cairo, 
Egypt. We have protected diplomatic personnel. And finally, we 
have conducted air strikes against loyalist forces in Libya 
and, as I mentioned, rescued an American aviator shot down 
during Operation Odyssey Dawn.
    Demand for amphibious forces has never been greater, as I 
said. While we cannot know when the next conflict will occur, 
we know in fact that it will occur. When that happens, 
America's forward-deployed Navy and Marine Corps team will be 
there, ready to plug the gaps during international crisis; 
ready to give our decisionmakers back here in Washington time 
and space in which to make those decisions; and ultimately, to 
provide those decisionmakers with responsible options to 
respond when the Nation is ready.
    The United States remains the world's largest economy. We 
are critically dependent on the sea for exports and imports 
that ultimately sustain our livelihood. Disruptions in the sea 
have measurable economic impact on every family in the States. 
The Nation's naval forces provide the ability to maneuver 
through the littorals, to deter, to defend, and to protect 
vital areas from any variety of threats without dependence on 
land bases.
    I would urge the members to remember that the Nation's 
economic health is directly tied to our ability to maintain 
stability on the seas. Your Navy and Marine Corps team is 
forward-deployed and ready to meet the needs of our Nation.
    Over the past decade, our men and women in uniform have 
made extraordinary sacrifices. We must maintain faith with our 
marines. We must send them a clear message that their 
contributions are recognized and appreciated. For us the 
marines, keeping faith means that the institution, the people, 
the marines, the families that are out there in Twentynine 
Palms, Camp Pendleton, Camp Lejeune, Beaufort are ready.
    We need to maintain their best interests at heart. Even 
though they understand there will be changes, we must have 
their best interests at heart at all times as you look at the 
three main areas of manning, training, and equipping our forces 
that go forward. We cannot break faith with them.
    Cuts at the level anticipated with sequestration would in 
fact break faith with those marines. I would like to add that 
as the year continues, the challenge we face operating on a 
continuing resolution will only increase. We need a budget 
passed so that we have the predictability and flexibility to 
carry out our missions.
    In the months and years ahead, we will face difficult 
resource decisions. I urge Congress to consider how best to 
mitigate the risk of a reduced defense capability; and I tell 
you, like an affordable insurance policy, the Marine Corps and 
Navy's amphibious forces are, in fact, the hedge against the 
Nation's most likely risks. It is imperative that our Nation 
retain a credible means of mitigating risk as we draw down 
other capabilities and capacities.
    Thank you for the opportunity to be here. I look forward to 
your questions.
    [The prepared statement of General Mills can be found in 
the Appendix on page 54.]
    Mr. Akin. Thank you very much, General.
    Our last witness is Major General John Hesterman, United 
States Air Force, Assistant Deputy Chief of Staff for 
Operations, Plans and Requirements.
    And I also wanted to offer my congratulations, General 
Hesterman, at your nomination for Lieutenant General, I guess 
was just yesterday, was it?
    Thank you very much. Please proceed.

  STATEMENT OF MAJ GEN JOHN W. HESTERMAN III, USAF, ASSISTANT 
 DEPUTY CHIEF OF STAFF FOR OPERATIONS, PLANS, AND REQUIREMENTS 
                     (A3/5), U.S. AIR FORCE

    General Hesterman. I thank the chairman. My senior joint 
brothers have told me I will immediately become more 
intelligent and more eloquent if that confirmation process goes 
forward.
    Chairman Akin, Chairman Forbes, Ranking Member Bordallo and 
all the distinguished members of the committee, thanks for the 
opportunity to provide you an update on your power projection 
forces and your outstanding airmen around the world.
    Today, the Air Force is fully engaged in operations across 
the globe supporting our Nation's and our combat commanders' 
requirements. Today, our capability and reach are unparalleled 
among the world's air forces, and the dedication of your airmen 
is truly exceptional, and they are busy.
    Each day, 24 hours a day, a mobility aircraft takes off 
every 90 seconds. On an average day, your airmen and our 
airlift fleet transport 4,500 passengers and over 1,900 tons of 
cargo. Our tanker crews deliver 5 million pounds of fuel to 
U.S. and coalition aircraft and there has been no let-up in the 
pace.
    Since September 11th, 2001, our tankers have delivered 15 
billion pounds of fuel. Our airlift fleet has delivered over 
6.5 million tons of cargo. During a 2-week period last March, 
affectionately known inside the Air Force as ``March madness,'' 
the Air Force conducted humanitarian relief efforts in Japan 
simultaneously with combat operations in Afghanistan, Iraq, and 
Libya.
    In Japan, the Air Force opened Sendai Airfield in the heart 
of the disaster area within 5 days of the tsunami and started 
the flow of much-needed aid. Within 2 weeks, our airlift crews 
delivered 2.5 million gallons of water and 167 tons of food to 
those most affected.
    Last year in Afghanistan, we air-dropped 60 million pounds 
of critical supplies in the most heavily contested areas to our 
soldiers and marines. Our air-drop for Operation Enduring 
Freedom has doubled each year since 2006, from 3.5 million 
pounds in 2006 to 60.4 million pounds in 2010. And this year we 
have exceeded the 2010 number already.
    This important capability minimizes the predictable 
overland delivery requirement which puts truck convoys and U.S. 
personnel at risk of insurgent attacks and the prolific IED 
[Improvised Explosive Device] threats. It saves soldiers' and 
marines' lives. At the same time, in the early days of the 
Libya conflict, as part of Operation Odyssey Dawn, our B-2 
stealth bombers launched from Whiteman Air Force Base in 
Missouri flew halfway around the world and destroyed precise 
targets in Libya before flying back home to Whiteman. En route, 
they were refueled several times by our tanker fleets and their 
crews. Yours is the only air force on the planet that can do 
that and right now, we can do it anywhere we need to.
    Our Nation cannot afford to compromise this long-range 
strike capability, particularly as we look at a future with 
anti-access/area-denial environments our adversaries are now 
creating.
    Chairmen, Ranking Members, all the distinguished 
subcommittee members, I join our Secretary of Defense and my 
Air Force Chief of Staff in stating that any further cuts in 
addition to the $450-plus billion already identified in the 
Budget Control Act will at least reduce our capability to 
conduct these operations concurrently. And if the sequester 
provision goes into effect, it may risk our ability to protect 
the Nation.
    My sincere thanks to all of you for your continued support 
of your outstanding airmen and for all our Nation's military, 
and I look forward to your questions.
    [The prepared statement of General Hesterman can be found 
in the Appendix on page 61.]
    Mr. Akin. Thank you, all three, for your testimonies.
    We are going to now proceed to questions from both 
committees here. And as the chairman, I guess I get the first 
shot. So I am going to try and start with kind of simple 
things.
    There are a lot of people that would prefer America to be a 
nation that is at peace and where things are peaceful and there 
is not war going on all the time.
    So if you really want America to be a peaceful nation, 
would you think it would be better to have a strong military or 
a weak military?
    Admiral Clingan. Chairman Akin, I will start the answer.
    Of course, you might imagine that you will find unanimity 
of opinion at this table that a strong military certainly 
contributes to the peace that the American population and, 
frankly, our allies and partners desire. And in many cases we 
are the guarantor of their peace as well as our own.
    Mr. Akin. Good, let us just stop right there. That is kind 
of what I was fishing for.
    It seems like to me if we are strong, one, it doesn't 
encourage adventurism in other nations that are less stable. 
And it provides not only peace for our own people but around 
the world nations can trade and more or less live at peace just 
because of, in a sense, the umbrella that we provide.
    Is that a pretty safe assumption? And so if we allow our 
defense to degenerate, then we get into a situation where there 
is more wars and things, isn't that right? The times that we 
have been at war, haven't those times been many times when we 
are not as strong as we might have been? Anybody want to 
comment on that historically?
    General Mills. Sir, I would echo your words. I think any 
student of history realizes this country has been most at 
threat and gone to war when it has been its weakest. Certainly, 
World War II would be certainly an outstanding example of that.
    But I concur with the admiral. The best way to ensure a 
just peace is to have a strong military that is out there to 
deter your enemy and to stand ready to defend your homeland if 
called upon.
    Mr. Akin. Right.
    Now, sometimes people are critical and say, ``Hey, we have 
got troops in Germany and we have got troops in Korea, all this 
stuff. Why do we need troops all the way over there? Why don't 
we just bring them home, and save a lot of money--with having 
to resupply all of those different people living in different 
corners of the world?''
    And, yet, some of the missions that you have talked about 
today couldn't happen if we didn't have forward-deployed 
troops, isn't that correct?
    Admiral Clingan. That is correct, Chairman.
    Mr. Akin. So just kind of running through things, first of 
all, a navy, your mission in a way is to turn the oceans into 
area where we can project force in order to keep the peace but 
also be prepared for different contingencies, is that correct?
    Admiral Clingan. Chairman Akin, that is absolutely correct.
    Mr. Akin. And in order to do that you have to have a 
certain number of ships because the globe is a pretty big place 
to put ships on, isn't it?
    Admiral Clingan. Yes, it is.
    Mr. Akin. So you don't have enough ships you are not going 
to be present and then people start to become adventurous and 
do risky things, is that right?
    Admiral Clingan. That is certainly a risk as we look at the 
future security environment and the way it is evolving.
    Mr. Akin. Okay.
    And then from the point of view of the Marine Corps, your 
job is to be the first ones in, but in a degree, doesn't that 
also buy us time in terms of what our response needs to be when 
there is a problem, General?
    General Mills. Absolutely, sir. The presence of amphibious 
forces near a crisis site, I believe, buy critical time for 
decisionmakers to sort out what needs to be done and come to a 
reasonable solution over that.
    Those forces don't necessarily have to be ashore. Simply 
their presence in the area indicates the strength and power of 
the United States is there ready to take action if so called 
upon; I believe has a huge deterrent effect anyplace in the 
world where we have our forward-deployed forces.
    Mr. Akin. Because essentially if you need to go into a 
particular location in the world in a fairly short period of 
time, you could hit with a pretty big hammer and land an awful 
lot of marines, is that correct?
    General Mills. Sir, we advertise ourself as a middle weight 
force but we are in fact strong enough to be able to stabilize 
any situation and then allow for the entry of the joint force 
as it begins to close on that situation.
    But, yes, sir, we are there prepared to win once we get 
ashore, and then thoroughly ready to do so under our current 
capabilities.
    Mr. Akin. Right.
    General Mills. Should we suffer drastic cuts, those 
capabilities, in fact, could be reduced?
    Mr. Akin. And when that is reduced then you have got to 
make decisions, right? You got to decide, ``Am I going to cut 
training? Am I going to have fewer troops?''--so that makes 
everything more risky. ``Am I going to have cheaper, poorer 
quality equipment so people don't have the type of protection 
they need?''
    All those are given you some kind of impossible decisions 
to make in a way, aren't they, when you get down to a certain 
point?
    General Mills. Those are very difficult decisions to make, 
sir. I think the battlefield is a dynamic place. It is not 
stable. The enemy threat changes every day. I would point to 
Afghanistan where we look at an enemy who is adaptive, who is 
imaginative and who we have to adjust to. Those require changes 
in equipment, they require changes in training and adequate 
force structure to conduct the mission once ashore.
    Mr. Akin. And then, John, from a Air Force point of view, 
in a way, you have a lot of service aspect to what you do 
because you are providing all that support essentially to all 
the other people, as well as that long-range punch to let 
people know that we have some teeth and those teeth can reach 
pretty far and bite pretty hard. And that is what you have to 
try to maintain that capability too, right?
    General Hesterman. Yes, sir, Mr. Chairman, that is true.
    And let me add, to pile on just a little bit, I spent the 
last year of my life in the Middle East as the Deputy Air 
Component Commander for Central Command. And there is a reason 
the combatant commanders spend most of their time working on 
relationships with foreign militaries and foreign leaders: so 
that we are able to execute, or we are told to go execute the 
things we need to do that we have those relationships in order 
to give us the access and the lily pads and the things that we 
need to prosecute our campaigns.
    Mr. Akin. So there is an ongoing working with other nation 
partners and things, which facilitate that ability to provide 
that overall umbrella of peace, really----
    General Hesterman. I am convinced it is essential, sir.
    Mr. Akin. Yes.
    Well, if any of you want to jump on; I just want to talk at 
the highest level. What starts to degenerate if you don't fund 
things enough?
    Because we have seen the charts, and we have been cutting 
defense, as a percent of GDP heavily. We see that we have 
reduced our force almost by half of where we were in 1990.
    And now we are talking after $450 billion, which again I am 
trying to figure out what 45 aircraft carriers look like in a 
row. Imagine, Admiral, you might think it is a pretty sight as 
a matter of fact.
    But, anyway, that is a lot of money we have already taken 
in cuts, and now we are talking about more cuts.
    And, really, I think what I am hearing you say is that if 
you really want a safe and well-defended America, you just 
can't do this. I think that is what I am hearing you say.
    Admiral Clingan. Chairman Akin, as we contemplate how to 
solve the budget puzzle posed with the current cuts that are on 
the table, the Department of Defense appreciates the fact that 
those type of major adjustments must be driven by strategy.
    And that strategy review is ongoing.
    As the Navy looks to its maritime strategy as a supporting 
strategy for that defense strategy, we can see the persistence 
of some strategic imperatives that you have alluded to; for 
example, contain regional conflict, deter adversaries, win our 
Nation's wars. And we do that with forward regionally postured 
forces.
    We also see the imperative to contribute to the homeland 
defense in depth to foster and sustain the cooperative 
relationships that have been talked about and are of great 
value as we work together in an evolving security environment 
that is challenging and, of course, to prevent disruptions and 
crisis that disrupt the international system. That benefits all 
of us, as I mentioned earlier, not just America, but allies, 
partners and even adversaries.
    To that end, we use globally distributed naval forces. And 
the benefit of those forward forces is a commitment, this 
declaration of commitment to our allies with which we have 
common defense agreements.
    To our partners who look to us to protect their interests 
and their economic well-being in a world that relies on 
container ships moving 90 percent of the commerce, and we look 
at the rapid response that the General talked to where we can 
provide with the Navy offshore options that are very diverse in 
their capability and tailorable to achieve support of our 
national interests.
    So we look, as these budget adjustments must be 
contemplated, at the prospect of finding the forward presence 
that we know we need in this evolving security environment to 
be at risk.
    Mr. Akin. Thank you very much.
    I didn't mean to take too much time, but I think the next 
person I am going to isn't here; McIntyre.
    So I will go ahead----
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    My first question is for General Hesterman.
    Last week, while Secretary Panetta was meeting with allies 
in the Pacific, he reaffirmed the U.S. intent to remain a 
Pacific power. We applaud the Secretary's focus on this key 
region, and we will do everything we can to support this 
imperative.
    However, in order to ensure that such words could be 
translated into actual military capability, we need to think 
about numbers. Given the tyranny of time and distance in the 
Pacific region, and I know I don't have to remind you, but 
given that these areas are a part of the United States, and 
many thousands of U.S. citizens are living there, at what point 
do Air Force fleet numbers drop too low to sustain an extended 
air campaign in the region?
    We must have enough long-range strike assets in the fleet 
to project force over enemy territory in a concentrated 
fashion. The Air Force has done nothing but shrink the force 
over the past decade. At a certain point, you simply can't do 
more with less. So my question is where is the red line 
regarding the size of the fleet as we look at the operations in 
the Pacific theater?
    General Hesterman. Ma'am, I don't have a number for you, 
but what I will tell you is this is important to us. It is what 
we do. You know, my kid brother is a 46-year-old vice wing 
commander at a strategic bomber base in Louisiana. He spends a 
lot of time on Guam. Every airplane on the ramp is 4 years 
older than him, at least.
    So what we have to do is be able to have a budget that 
allows the modernization of that fleet, because we expect those 
youngsters to fly that thing until 2030. And in order to equip 
it and equip the weapons base with the kinds of standoff 
weapons they all need to fight in the Pacific theater, we have 
to fund those things, because they will go if we ask them, 
needless to say.
    You know, we have to fund the long-range strike bombers, as 
you talked about because at some point, you know, we have to 
have a platform that will actually get and be able to operate 
inside of that fight.
    So it is similarly important to us to have the right number 
to be able to prosecute our campaigns in the theater there.
    Ms. Bordallo [continuing]. But it must be the right number?
    General Hesterman. Yes, ma'am.
    Ms. Bordallo. Thank you, General.
    And I have another question, Mr. Chairman, for Admiral 
Clingan and General Mills.
    Given China's rapid development of an increasingly capable 
blue-water navy and their intent to be in broadened command of 
the Western Pacific operating area, how would a resource-
constrained Navy and Marine Corps respond to calls for support 
from our allies in the region if contentious natural resource 
land or navigation issues arise?
    How important is it to have our forces strategically 
forward-deployed in the Pacific to overcome the massive 
challenge of tyranny of distance?
    And I will begin with you, Admiral.
    Admiral Clingan. Ranking Member Bordallo, thank you for the 
question.
    We respond to those types of crises which are unanticipated 
and at times come up in a fashion or a manner over a spark that 
wasn't anticipated with having forward-deployed naval forces 
that are permanently stationed overseas, as well as having 
forward presence that we generate through the rotation of 
United States-based forces.
    It is that combination that allows us to respond 
immediately with the presence that are there in theater.
    And should the tension or crisis be of such a magnitude 
that those forces were insufficient, we would have the 
wherewithal to surge additional forces from the continental 
United States, should that be required.
    But your point is that we need those forward forces to be 
sufficient to deter that type of behavior in the first place. 
And that is an area that takes the leadership of the United 
States, both diplomatic and military, to keep a constant sense 
of the trends and the assertiveness of nations; not just China, 
but others; so that we understand how that environment is 
evolving and we can make adjustments in terms of those standard 
levels of presence that would be there.
    Ms. Bordallo. Thank you, Admiral.
    And General Mills.
    General Mills. I would just add to the Admiral's comments 
on the value of the forward-deployed forces over there, that 
they assure our allies and our friends that the U.S. is 
interested and that we maintain a presence over there because 
of that vital interest and our vital interest in supporting 
them as they proceed to their day-to-day activities.
    Secondly, it gives us the opportunity, forward-deployed, to 
interoperate with our allies, with the Australians, who are 
developing an amphibious capability because of some of the 
threat that they see on the horizon.
    Forward-deployed forces enable us to operate on a day-to-
day basis with them to gain familiarity with them, 
interoperability, and develop those relationships that become 
very critical during times of crisis and, ultimately, perhaps 
in times of war.
    So the value of a constant presence out there, I think, 
cannot be overstated.
    Ms. Bordallo. Thank you, General. And I yield back, Mr. 
Chairman.
    Mr. Akin. Congressman Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, gentlemen, thank you so much for your service to our 
country and for being here today. Admiral, we talk a lot about 
these numbers, and they, kind of, go over everybody's head 
sometimes, especially the general public; I know not over the 
three of your heads.
    But one thing that really just stuck out to me in your 
testimony was the fact that you said that, in fiscal year 2011, 
throughout 2011, the Navy was only able to meet 59 percent of 
the combatant commanders' requirements.
    And I am assuming I am reading that correctly.
    And that was, as I understand it, before the $465 billion 
of cuts that are going to be coming our way that we are already 
taking, and, obviously, before any $600 billion in 
sequestration. Is that a fair statement, Admiral?
    Admiral Clingan. Yes, sir, it is.
    Mr. Forbes. General Mills, have you been able to look at a 
similar analysis for the ability that you had to meet our 
combatant commanders' requirements before all of these $465 
billion of cuts, or the $600 billion cuts?
    And if you were, can you give us any ballpark of that 
percentage, like Admiral----
    General Mills. I can, Mr. Chairman.
    If you assume that the 20,000 marines deployed to 
Afghanistan will also meet a combatant commander's requirement, 
then we are at about 60 percent of that requirement.
    If you subtract those 20,000 forces out, we drop into the 
20s because of that large commitment on the ground that we have 
in Afghanistan.
    I think some of it reflects, for both of us, the rapid rise 
in those requirements over the past few years. Since 2007 we 
have seen somewhat of an 86 percent increase in the combatant 
commanders' requests for amphibious forces.
    So it is a rising demand and there is a large commitment 
already made, and we are doing the best the we can.
    Mr. Forbes. And you are not seeing anything on the security 
front that suggest to you that that is going to reduce 
significantly over the next few years, have you?
    General Mills. I do not. I do not. I would expect that 
demand only to increase.
    Mr. Forbes. General Hesterman.
    General Hesterman. Sir, I don't have a number to throw out 
at you. What I will tell you is the combatant commander 
requirement for several of our capabilities are at a 1-1 dwell. 
That means people are in combat for at least as much time as 
they are home.
    You know, so, pararescue men, ISR [Intelligence, 
Surveillance, and Reconnaissance] operators, combat 
controllers, special operations, weather guys, civil engineers, 
our EOD [Explosive Ordnance Disposal] guys that find those 
IEDs, there aren't enough of them. And we send all that we can. 
And we have already cut well back in some of our training in 
order to meet combatant commander requirements. We will 
continue to do that.
    Our service leadership is committed to giving them 
everything that we have.
    Mr. Forbes. And, General, just for clarification, that is 
before----
    General Hesterman. Yes, sir.
    Mr. Forbes [continuing]. The $465 billion of cuts that are 
coming down the pike we are already taking?
    General Hesterman. Yes, sir, that is true.
    Mr. Forbes. And obviously long before sequestration.
    General Hesterman. Yes, sir.
    Mr. Forbes. Admiral, just one last question for you; and 
this is no fault of the Navy's. This is because we just haven't 
given you the resources. But today, as I understand it, you are 
facing--let us forget Afghanistan and Iraq--and let us look at 
China and what we face there.
    The Chinese, for the first time in our lifetimes, have more 
ships in their Navy than we have in our Navy. And we can argue 
about capacity and those kind of things, but it is my 
understanding that, from just surface-to-surface missiles based 
on open-source documents, they can hit us from about 185 
kilometers, and we are at about a 120-kilometer range to them.
    And at the end of this decade, they are going to have 78 
subs to our 32 subs in the South China Sea, if we don't do 
something different.
    You have a $367 million shortfall in your maintenance 
accounts because we haven't given you the money to do them.
    My concern is this. If I look at your projections for 
shipbuilding, and even, at a minimum, a 313-ship Navy, about 70 
percent of those ships that will make up that 313-ship Navy by 
2020, we already own today. But we are not able to do the 
maintenance; and, again, not through your fault, because we 
haven't given you the resources.
    What can the Navy do? Are we going to continue to just 
allow our resources to wear out so that we take them off 
earlier, or are we going to try to invest resources to try to 
maintain them and get a greater service life? And if so, how in 
the world can you do it if we are already at $367 million 
shortfall in the dollars we have given you to maintain the 
ships we have, and we are cutting another $450 billion, and we 
are talking about sequestration?
    How do you possibly get your arms around that?
    Admiral Clingan. Well, that is one of the daunting 
challenges that we are working with, not just today but as we 
look to make the cuts required.
    First of all, one of the contributing factors to the 
material condition of the ships, which we are working to invest 
in through increasing the dollars that we allocate to our 
maintenance accounts, to your point, to get those ships to 
their expected service life, one of the challenges has been 
that, for at least the last 3 years, we have been operating 
above a sustainable operational tempo, at a level that we call 
surge, as we endeavor to meet that combatant commander's demand 
that you alluded to.
    That is with our current force structure. It has come at a 
cost that represents missed maintenance opportunities or 
reduced maintenance opportunities. It has come at longer 
deployments that have caused that compression of the 
maintenance cycle. It has come at tailored mission training as 
opposed to fully robust major combat operations training, so 
that we can get those ships forward to do the missions that the 
combatant commanders need.
    As we have looked at the cost of that surge, we have come 
to the conclusion that you mentioned, which says it is an 
unsustainable rate and we must build time into our force 
generation model that allows the appropriate maintenance to be 
conducted and we must fund that maintenance appropriately.
    We have taken steps within our budget constraints, 
approximately 900 additional million dollars each year toward 
that end, but it will come at a cost of reduced forward 
presence as we keep those ships which have been operating at 
surge at home to get the maintenance required.
    Mr. Forbes. So, Admiral, it would be fair to say that that 
59 percent that you were able to meet under the previous 
budgets, we may not even be able to meet that if we are having 
to keep more of the ships back home. Is that a fair statement?
    Admiral Clingan. That is a fair statement. It will depend 
on their demand signal, which, as the General alluded to, we 
expect, in the evolving security environment, will go up.
    Mr. Forbes. Thank you, Admiral.
    And, Mr. Chairman, I yield back. Thank you.
    Thank you, gentlemen.
    Mr. Akin. And Congresswoman Davis.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman. I 
appreciate the joint hearing and certainly appreciate the 
service of all of you gentlemen. Thank you very much for being 
here and for your leadership.
    I wanted to just clarify for a minute, as I am looking at 
the declining force structure chart, and are these numbers that 
you all, if we go over to the final, if the super committee 
fails, my understanding is this is really a worst-case scenario 
if, totally, across the board, everything is cut.
    Are these the Pentagon's numbers?
    Admiral Clingan. Congresswoman, I can't attribute the 
numbers to anybody beyond what the footnote says. But I can 
comment on the impact of sequestration.
    Backing up just a minute, as we look at how to work simply 
with the current bill that we have with the existing $450 
million to $500 million requirement, we are looking to balance 
risk as we take those cuts by, number one, making sure that we 
are ready to fight and win today; number two, to build the 
future force that we can fight and win with tomorrow; and, 
three, to take care of our people, as we work through those 
priorities to avoid a hollow force.
    Mrs. Davis. I----
    Admiral Clingan. I can't get any more----
    Mrs. Davis. I appreciate that, sir.
    I just wanted to understand for myself because I think that 
the attribution is for the quote and not for the numbers in the 
chart, if I am not mistaken. And I just wanted to, I hope that, 
you know, if you all can go back and take a look at those and 
see. Is that really what you would come up with, so the 
Department of Defense would provide those numbers.
    I think the other thing that is really critical and it is 
important, I think, for our constituents and certainly for the 
country to understand is, you know, as you are talking about 
the 59 percent of requirement, and certainly 87 percent, you 
know, for Marines, what does that really mean in specifics?
    I think you have tried to do that, but it would be helpful 
to even have that on paper as we were to draw down. Some of 
those requirements, we know, certainly in budgets there are 
things that, you know, under the best of circumstances it would 
be great to have, but, you know, it is not as critical as some 
other things.
    I think I am looking at the criticality here. You know, 
what is it that really does make a difference? I happen to 
believe that humanitarian missions actually can do more for the 
country sometimes than other commitments that we have and other 
kinetic activity.
    So I think that, you know, if we could look at that more, 
that would be very helpful because we are trying as hard as we 
can to communicate with the individuals that are serving on 
this super committee and that kind of specificity would be 
very, very important to have. I think that we talk about 
hollowing out of the force, but you know, getting down to the 
details is also important.
    And certainly on the personnel issues, I welcome your 
comments about that. You don't have to make them now. But, you 
know, where is it? I mean, obviously none of us would like to 
touch any of that, but if we have to, and we want to make 
certain of the least harmful to our troops, that keep the 
faith, et cetera, what is it that you think, you know, in your 
many years of service, would actually be reasonable to look at; 
would be something worth, you know, worth doing.
    And the other thing, just very quickly, I just have a 
moment, in terms of the overseas presence. Our constituents ask 
those questions all the time. And I don't know whether there 
are opportunities where if you drew down a sixth of the force 
that is overseas, what difference that would make. We are 
talking about more accompanied tours in South Korea, for 
example. You know, how critical is that? And is that worthwhile 
to put that effort into there? Or, you know, is that not as 
important in terms of how are troops are able to carry out 
their mission?
    I happen to know something about accompanied or 
unaccompanied tours, but on the other hand I think, you know, 
that is, today with our budget constraints, we may be looking 
at some different realities. So I wanted to be sure that I had 
a chance to get out that message.
    And then I think just finally, we know that our Marines 
have certainly not been as much a part of amphibious ready 
groups as in the past and there are challenges there, and 
within budget constraints where do those lie as well?
    So I have given you very little time to respond. I am 
sorry. But I wanted to just lay out and understand; help us get 
to the specificity when you can.
    Would you like to comment?
    Admiral Clingan. Just quickly, Representative Davis. As we 
work through those priorities I outlined, these ship numbers 
are in the ballpark of what could result. So while I can't 
credit the numbers exactly, this is the type of impact that you 
might expect.
    General Mills. I would offer up my, I am not sure where 
those figures came from. We did a very, very thorough and 
rigorous force structure review over the past year, arrived at 
what we felt was a Marine Corps proper size, 186,800 marines 
that met our commitments and kept our capabilities where they 
were. But more importantly, perhaps, reduced stress on the 
force to give marines adequate time at home between training 
deployments and between actual deployments, to be able to spend 
some time decompressing, if you will, from their activities.
    That force is at great peril as we watch the budgets 
decline. Where the breaking point is, is probably difficult to 
say. We look at what our commitments are; what we are required 
to provide the Nation in the way of COM [Command] plans and 
things like that, but also what we need to be able to give our 
forces adequate time to train and adequate time at home in 
order, as I said, to recover.
    I would offer up that, as you talked about South Korea, the 
presence of forces in the Pacific offer up quite a, present our 
possible opponents over there with whom they have to think 
about. They can't act as freely knowing that there are American 
forces both in Korea, close by Korea, and within the Pacific 
region that could respond quickly, and I think raise the stakes 
considerably when they decide what their strategy will be 
against us in the years to come.
    So I appreciate the opportunity to comment on that, but I 
think, again, the value of deterrence with forward-deployed 
forces cannot be overstated. It is absolutely critical to what 
we are trying to do all over the world.
    General Hesterman. Ma'am, just very briefly. Our thoughts 
on the numbers are the same as my compatriots here. The thing 
that we worry the most about is the stress on our airmen, 
needless to say. One thing I will tell you, in a lifetime in 
the Air Force, the thing that is the biggest morale booster is 
having the appropriate training and the appropriate equipment 
and the appropriately sized force to win when we send them into 
conflict.
    Mrs. Davis. Thank you.
    Mr. Akin. Yes, I think you had a question on the numbers 
that we had in that one set of graphs? Could we throw the chart 
up on the screen again? The screen with the different various 
cuts. How much we are going to be, what the cuts were going to 
be?
    I guess we can't put it on the screen. Anyway, my 
understanding was, let me get this right, the 1990 numbers are 
from where? Those are historical data. Oops, we are getting 
closer here. There we go.
    So the 1990 number is historical data. The 2000 numbers are 
also historical data, right? And the today numbers are 
historical. The black and red columns were done by some of the 
staff on the Armed Services Committee, and my understanding is 
those are simply you take the size budget cut; it is a straight 
percentage, and take the percentage, and that is what you get.
    Obviously, it is an estimate, but it is kind of a ballpark 
if you figure using straight percentages. Okay. Our next 
question comes from Congressman Hunter.
    Mr. Hunter. Thanks, Mr. Chairman. And I would like to 
recognize General Mills, too, first Marine Corps general to 
command NATO [North Atlantic Treaty Organization] forces in 
combat; just left Afghanistan. So he is not just a Quantico 
guy. He just left theater. And I am just happy to have you back 
and thanks for the job there.
    Think back 50 years ago to World War II, putting a Marine 
general in charge of anybody would have created an uproar; but 
we were able to do it, so hurrah for that.
    When I look at the three of you, what I see is kind of like 
the heavy compound list; like let me just phrase it this way: 
dead lifts, squats and bench press. I mean, you are what makes 
the American superpower the American superpower. You can do 
curls and you can do other fancy stuff to get beach muscles, 
but when it comes to heavy lifting and how powerful you are, 
and the ability to reach out and touch somebody, it is you.
    And when you think back to the Falklands in 1982 with the 
British as kind of the, Britain's last gasp of trying to reach 
out and touch somebody, and succeeding, but also kind of that 
was their last gasp, and post-World War II Britain giving up 
all of their sea bases to us.
    I don't even know where to start with what is happening. 
Chairman Akin and Chairman Forbes have laid this out. If we 
can't reach out and touch people anymore and we pull back our 
sphere of influence, you have things like the LCS [Littoral 
Combat Ship], which I would argue is just a fast frigate. It is 
not Stealth. The Navy has some carbon-fiber ships that could 
evade radar. We are not building them. We are building fast 
frigates that can't get next to Taiwan; that can't go through 
the strait there.
    On one side, we are building ships that are going to be 
nice to have. They are nice modular ships, but they are not 
going to be able to get our men and women to where they need to 
go. And then on the Marine Corps side, I guess the big question 
is: Do we need to go anymore?
    So I have seen the Air Force's plans for the next-
generation tanker and the bombers, and they are looking good. 
They are looking on track and it looks like you have overcome a 
lot of the acquisition problems we have had in the past. But 
when it comes to the Navy and Marine Corps being able to reach 
out and touch and gain access to that anti-access/area-denial 
thing that we like to say, it seems like we are well behind 
that still.
    And there is not a chance in heck of getting there now with 
the way that the budget is. But even when we have to 
prioritize, we are still not buying the right stuff. We are 
buying stuff, but we are not buying the right stuff.
    So if you can't get next to Taiwan and you can't get even 
close to North Korea, why do you need the ability to knock down 
doors and gain a beachhead, if you can't get there in the first 
place?
    So my question is for General Mills, do we need to get 
there in the first place? Does the Marine Corps need that 
anymore?
    And to Admiral Clingan, how do we do it if we are not going 
to build the right ships for it, if we are going to build some 
modular fast frigates that are not stealthy and that are not as 
fast as some of the ships like the Stiletto in San Diego? It is 
a carbon fiber air entrapment whole ship that can go really 
fast and is undetectable by radar. If we aren't going to do 
that, then how are we going to touch people anyway?
    General Mills. Thank you for those comments, Congressman. 
And thank you for the comment on my service.
    Let me just start off, and I would just say that the Marine 
Corps and amphibious warfare go back, as you know, quite a 
while. The initial question we had to answer was: Was 
amphibious warfare even feasible, back in the 1930s, as we 
began to look at an expanding Japanese threat in the Pacific? 
There were many people back there who said no, it was not a 
feasible military strategy and was foolish for us to pursue and 
try to train and equip our forces to do so.
    I think the success, obviously, in World War II as it 
evolved and as our tactics changed and our equipment changed, 
proved, in fact, that was a very feasible strategy.
    In the years since World War II, time and time again, the 
feasibility of amphibious operations has been questioned, 
whether it be in 1949 when it was--General Bradley questioned 
the very idea that an amphibious attack would ever take place 
again, followed very shortly thereafter, of course, by the 
Inchon landing and then what many people would describe as the 
decisive stroke of the Korean War, and the other amphibious 
operations that have taken place since that time.
    Each time, things have changed. The threat has been more. 
People have questioned whether or not that was still a feasible 
military operation. Each time, I think that the Navy and Marine 
Corps team, backed by the entire joint community, has proven in 
fact not only is it feasible, but it is extraordinarily 
valuable as you pursue operations whether across the entire 
spectrum of military operations, everything from humanitarian 
relief to full combat ashore with Task Force 58, as we struck 
some 450 miles inland to begin the Afghan war back in the early 
2000s.
    So I would say that those who question the ability of 
amphibious forces to conduct operations today just don't 
understand the way that we constantly study, that we constantly 
adapt, that we constantly change. And we face a threat and we 
believe that we can overcome it.
    I would argue vehemently that amphibious operations play a 
critical role in the United States military spectrum of 
capabilities. We fit in very nicely to the joint effort. I 
think over the years we have begun to operate more and more 
with them. We operate very closely with our SOC [Special 
Operations Command] community, which is emerging as a very 
powerful force.
    We also operate now with our cyber community, which, again, 
is adding another facet to amphibious operations.
    So I would argue, properly equipped, properly trained, 
properly manned, amphibious operations are indeed a valuable 
tool for the United States military to have in its toolbox in 
the years to come.
    Admiral Clingan. Congressman Hunter, thank you for the 
question, and you have well articulated one of the challenges 
that faces the Navy and the joint force today.
    Clearly, to bring the Marine Corps to bear in its 
amphibious assault role and in fact to flow the joint force to 
a theater of interest and to sustain it requires that we deal 
with the anti-access/area-denial environment that is not only 
evolving in the Asia-Pacific, but we expect proliferation of 
those weapons as well as its uniquely evolving in other parts 
of the world.
    So it is a global challenge that we must be able to 
address, against a very capable adversary that can bring 
ballistic missile capability, cruise missiles, submarines and 
the entire spectrum of highly technical and sophisticated 
weapon systems together to oppose our access. We need to bring 
the entire portfolio of the Navy and the Air Force and other 
elements of the joint force to bear as well.
    So when we look at what is required of the Navy to deal 
with this anti-access environment, it runs the gamut from 
aircraft carriers to cruisers with ballistic missile and 
integrated air missile defense capabilities, as well as our 
DDGs and the DDG-51. It takes P-8s to deal with the submarine 
threat, and even the Littoral Combat Ship, which is our future 
mine countermeasures platform, which is an aspect of area 
denial that we have got to deal with.
    So it is a challenge, and the budget constraints that we 
face are going to require us to balance risk across that entire 
portfolio necessary to deal with it.
    Mr. Hunter. Thank you, gentlemen.
    And I would just end, Mr. Chairman, by saying he who 
controls the ocean controls the world, and he who controls 
space controls the ocean. And if we lose that ability we are 
going to lose our superpower status and be a regional power. 
And it is going to be a sad day if we in this committee and in 
these committees allow that to happen.
    Thank you.
    Mr. Akin. Thank you, Congressman Hunter.
    And Mr. Larsen; Congressman Larsen.
    Mr. Larsen. Either one works, Mr. Chairman. Thank you for 
recognition. I think what we are hearing is that deficits 
matter here on Capitol Hill, and the global recession that 
begin in 2007 exacerbated structural deficits, structural 
problems in the Federal budget overall that this Congress and 
Congresses before us and administration before us and this 
administration have all ignored.
    And now we are left with a period of having to make some 
serious choices, and serious choices sooner rather than later, 
because the tail on a lack of making decisions on this is 
pretty big. But the impact of making good decisions now is 
pretty big as well, in the future.
    And so that is kind of what we are left with. And I know on 
this committee we talk about a core constitutional function 
being common defense, but there is also general welfare, 
ensuring the blessings of liberty. So it impacts the entire 
budget.
    And I just think it is important to make those points as we 
are putting this in context. We tend to focus on one set of 
issues here on this committee, but there are a lot of 
committees and a lot of people around the country who are 
looking at a lot of other parts of the budget, too, and trying 
to make sure that we are addressing a lot of needs.
    And so now we are faced with choices that, frankly, we are 
elected to make, but are trying to resist making sometimes. 
But, you know, we have to make them. That is a premise.
    Admiral, just a couple questions. So I just want to 
understand some of the details on some of the points. On the 
maintenance and Navy ships that have been at a high operational 
tempo over the last 10 years, would this, a couple questions 
here, would this maintenance cycle, we have to bring these 
home; would these have occurred regardless of sequestration, 
first off? In other words, isn't the need for the maintenance 
of a lot of these ships going to occur anyway? So what does the 
impact of sequestration have on it, have on this maintenance, 
first?
    Second, the 59 percent of the requests that are being 
fulfilled; is that request of any and all requests, or are 
these 59 percent of the requests that have been validated by 
the Joint Chiefs of Staff that are being fulfilled? Or are 100 
percent of the requests that have been validated being 
fulfilled? You know, what is that number?
    And I guess for the record, if I could have the Air Force 
and Marine Corps get back to me.
    [The information referred to can be found in the Appendix 
on page 75.]
    Mr. Larsen. Give me the difference there between the 
percentage of requests being fulfilled versus the one that 
actually, the requests that have been validated have been 
fulfilled. So how do those differ?
    And I think those, if I had that kind of information it 
would help me understand a little bit better about this 
challenge. I know there are challenges, just trying to put some 
numbers on them that are from a similar standard so I can deal 
with some of these decisions and choices that we are going to 
have to make all over the budget, not just here in the defense 
budget, but all over the budget.
    So, Admiral, if you could, just take a whack at those.
    Then, for the other two, for the record, give me the Marine 
Corps and the Air Force numbers.
    Admiral Clingan. Congressman Larsen, thank you for the 
question.
    The impact of operating at surge levels over the last 
several years has resulted in challenges with regard to the 
material condition of our ships. And we have just recently 
finished work that has developed class maintenance plans for 
each type of ship. And that gives us a good baseline for us to 
understand what needs to be done to maintain these ships so 
they are ready to be operationally employed and will reach 
their expected service life.
    So we are endeavoring within budget constraints to put the 
right money against those maintenance plans and provide the 
time, the access for the ship yards and ship company to the 
ships when they are not operating to actually do the required 
maintenance.
    Sequestration, as you well know, applies a level cut 
against all program and activity lines. And so very clearly 
that budget line would be cut and we would be forced to rescope 
some availabilities and cancel others.
    So, if you will, this recovery effort that is required to 
get our ships to the expected service lives would be delayed, 
if not precluded to some significant extent.
    With regard to the 59 percent of the COCOM [Combatant 
Command] demand, the COCOMs derive their requirements from 
their tasking, and they are pretty good at that. And so they 
will work hard at deciding what capabilities across the joint 
force they need to accomplish their requirements, their effects 
out in the real world, and they get validated. So we are 
talking about 59 percent of the validated requirements we are 
able to resource.
    That said, we are working with them under the circumstances 
and have been to explore new and creative ways to meet the 
requirements. For example, while we prefer an offshore option 
in many cases, perhaps we can send the training team by 
aircraft and have them train in situ on the partnership. Not 
the way we prefer, but an alternative that may help us not 
exacerbate the shortfall in meeting their demands through 
innovative and creative ways, as an example.
    Mr. Larsen. And, Mr. Chairman, just before I yield back, I 
apologize for going over time. For the QFR [Question for the 
Record], can you break that down by COCOM as well, and maybe 
give me every 2 years, going back to 2000, the percentage every 
2 years that is being fulfilled and by COCOM, I guess. So I 
might get some perspective on this?
    Admiral Clingan. Yes, sir, we can.
    Mr. Larsen. Good. Thank you.
    General Mills. Representative Larsen, if I could comment--
--
    Mr. Larsen. It will be up to the chairman. I am over my 
time. Sorry, General Mills. It will be up to the chairman.
    Mr. Akin. You can finish the question.
    Mr. Larsen. Okay. Thank you, General.
    General Mills. I would just add to the admiral's statement, 
in addition to the maintenance, of course, which the Marine 
Corps also faces on its equipment, which is being used both for 
training and for operational purposes, sequestration also 
impacts our modernization programs, which are critical to us 
resetting the force as it begins to proceed ahead.
    Regarding the COCOM requirements, those are validated 
requirements. The joint system has a system in which they 
submit their requirements to a single point of entry, which are 
then prioritized and filled as best.
    The Navy, Marine Corps, and the Air Force have looked at 
ways of meeting those requirements in really extraordinary 
means. I will give you an example. The USS Kearsarge battle 
group that was out in the Pacific over the spring and summer of 
this year; three ships, at one point, separated literally by 
thousands of miles. As each ship conducted and met a COCOM's 
requirement, everything from the Pakistani floods to the 
operations off Libya to the landing force in support of my 
forces that were ashore in Afghanistan at the time when we saw 
an opportunity to deal a blow to the enemy.
    And so by spreading that force out literally over thousands 
of miles, those ships operating semi-independently, we were 
able to come to, with one asset, if you will, meet three 
requirements.
    So the Navy-Marine Corps team, and with the Air Force, and 
with the Army, are trying to meet those requirements as best we 
can using somewhat extraordinary procedures at times.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Akin. And Congressman Mike.
    Mr. Coffman. Thank you very much, Mr. Chairman.
    And thank you all for you dedicated years of service to 
this country.
    I certainly share the majority's concern within this 
committee that the cuts from sequestration, should they occur, 
on the Department of Defense would be far too deep and would 
hurt this country's capability. I disagree, probably, with the 
majority where they feel that no savings, further savings are 
available from the Department of Defense.
    And first I want to say that we have made progress in 
acquisition that have, I think, created efficiencies. We are 
going more to fixed-price contracting. And I think that that is 
a big help.
    I think there is a natural shift that is occurring from a 
counterinsurgency doctrine to a counterterrorism doctrine, and 
I think that that will bring about substantial savings to this 
country.
    And I certainly hope we never go down the path of nation-
building again.
    And I think it will take a good decade for our military to 
reestablish the combined arms capabilities that have been lost 
in counterinsurgency warfare that are essential to the 
deterring our adversaries.
    I have a concern that on the personnel side, the personnel 
costs. And Secretary of Defense Gates warned us about this, 
that the trajectory of personnel costs are eating into 
acquisition costs.
    So even if we can deal with a problem external to the 
Department of Defense, which is essentially the rise of 
entitlement spending, mandatory spending eating into the 
discretionary budget, I think we have a problem internal to the 
Department of Defense to the military in terms of the 
trajectory of personnel costs eating into acquisition costs. 
And, again, Secretary of Defense Gates warned us about this.
    And I want to express, when I am looking at this chart, 
where we talk about 1990 to today and the decline of our 
military going from, say, Army maneuver battalions to 180 to 
98; Navy ships, 546 in 1990 to 288 today; U.S. Air Force 
fighters, 4,355 to 1,990, et cetera.
    My guess is, and I will be asking the Department of Defense 
this, that we have more flag officers today than we did in 1990 
with a much larger force. I believe our military is just much 
too top-heavy today and there is an unnecessary cost associated 
to that.
    I think that we ought to be looking at, when we look at the 
force structure, what additional units could be placed in the 
Guard and Reserve for savings. I think, probably, we should 
look at, on the increasing-cost side, plussing up, I think, 
compensation for our deployed military, whether it is sea 
service or whether it is hazardous-duty or imminent-danger pay, 
to recognize the disparity between our deployed forces and our 
non-deployed forces.
    But I think that we are going to have to deal with the 
trajectory of personnel costs, and that is going to be very 
unpopular for this committee, and it is going to take a lot of 
courage.
    But we have got a two-front war going on against our 
capability: again, the external one that is coming upon us on 
November 23rd and an internal one on rising personnel costs. 
And I wonder if any of you would like to respond to any of the 
comments that I made.
    Admiral.
    Admiral Clingan. Sir, thank you for the question.
    The Department of Defense and the Navy appreciate that 
challenge of the rising personnel costs. And in almost every 
case senior leadership in the Departments have said all things 
are on the table.
    So many of the things that you have identified we are 
exploring with great detail, procurement program, process 
improvements, deficiencies, the rising costs of personnel. The 
top-heavy, I know we have looked at adjusting, and I believe 
have made adjustments, to the number of flag and general 
officers we have.
    And Active Component-Reserve Component balance, while not 
going back to the circumstance we found ourselves a decade ago 
where we didn't quite have the combat support and combat 
service support allocations across Active and Reserve right.
    You know, this budget challenge has caused us to look at 
all those things. And I think when the dust settles that you 
will find appropriate thought has been applied in those 
directions.
    Mr. Coffman. Lieutenant General Mills, do you have any 
comment?
    General Mills. I would agree with the admiral. I think that 
we have done, as I said, we did a force structure review last 
winter; took a look at the requirements for the Marine Corps 
and how they could be met with an appropriately sized force, 
looking at the drawdown in Afghanistan.
    I think that we designed a force that met our requirements 
and that was affordable under those budget conditions. Those 
conditions, we know now, are shifting and we are taking another 
look at being able to meet our commitments with a, perhaps, 
reduced force.
    I agree with you, sir, that we need to identify and to 
recognize our commitment of our people who are forward deployed 
and in harm's way. We do a good job of it. Perhaps we could do 
a better of it.
    I do believe that Secretary Panetta's guidance has been 
relatively consistent over the past couple of months, and it is 
critical that we do not break faith with our forces, both with 
our men and their families. I think that is important to our 
future.
    I think that we are going to have some tough choices to 
make. We basically got, I think, three ways to look at the 
cuts. We look at it through man, through train, or through 
equip. And those are the kind of hard selection processes that 
we are going to have to make and perhaps ask our question: 
``What is good enough?''
    General Hesterman. Sir, Air Force leadership is very 
similar to what my brother described here.
    I will tell you, I was the no-taker this weekend when our 
Chief and Secretary sat down with our Guard and Reserve 
leadership. They are committed to an optimal mix. They are 
committed to doing this together and to making sure that we get 
this right.
    General Mills. Sir, if I could add just one more thought, 
please?
    When you spoke about the 10 years you felt that would take 
for us to move back to a combined arms environment, I think 
that the, if one thing all of our services have shown over the 
past few years is our ability to turn, to adjust, and to adapt. 
I would argue that perhaps no other force in the world other 
than the United States force could have done what was done in 
Iraq and Afghanistan, which was move from a high-intensity 
conflict, a very traditional armor-against-armor force, to 
pivot on a dime, if you will, to moving to a very effective 
counterinsurgency campaign.
    I think that the flexibility of all of our forces was 
paramount to that. And very few people in the world could have 
done that.
    And I think we will show that same adaptability over the 
years to come if we move back to perhaps what you would think 
of as more traditional roles.
    I believe the combined arms force is still in effect. I 
believe an amphibiously capable force is still in effect. And I 
think that we are still able to accomplish a wide range of 
missions despite the fact that we have been focusing, perhaps, 
a bit on the Afghan fight over the past few years.
    Mr. Coffman. And, Mr. Chairman, I yield back.
    Mr. Akin. Thank you.
    And we also have our Congressman Gibson here.
    Mr. Gibson. Well, thanks very much, Chairman. And I 
appreciate you calling this joint meeting.
    I appreciate the panelists today, for your service and 
leadership.
    The question has to do for the Air Force, General 
Hesterman, about joint forcible-entry capabilities, 
particularly United States Army airborne, air assault, and then 
also United States Marine Corps supported by Navy, obviously.
    And looking at it both 12 months out and then also 5 years 
out, Air Force support in terms of simulations, but then also 
as building capabilities, the training exercises; the 
commitment in terms of platforms--C-17s, C-130s, joint arm 
airborne command-and-control, electronic warfare, fighters, 
bombers--the frequency that the Air Force will be able to 
support these exercises used to go on about six times a year at 
Fort Bragg, and the level of commitment you are going to be 
able to make.
    And then is there anything in the long-term planning to 
bring this all together, Air Force support to a truly joint 
exercise, whether that be simulated or at some point sort of 
like what Ocean Venture used to do years ago, bring in the 
whole joint team together?
    General Hesterman. Sir, first of all, let me say that our 
commitment to our joint brothers to be able to provide that 
capability you described is, that is why we are here. I mean, 
that is what we do.
    As far as being able to sustain these exercises or to grow 
them in, the reason we are here is to talk about the potential 
impact. You can be sure that if we go much beyond the cuts that 
we have now or into sequester, that those kinds of things will 
be at risk.
    Mr. Gibson. Well, then, based on, go with the assumption 
for the moment, no sequester. What is the Air Force's 
commitment at this point in terms of platforms and really the 
diversity of platforms to continue to build that capability 
going forward? Do you have any sense or do you want to do that 
for the record?
    General Hesterman. The sense of it is, is there is a lot of 
discussion now about which platforms we'll carry forward. The 
commitment, and my Service Chief articulated it yesterday, to 
provide this support to our land component is 100 percent.
    So what platform we will do that with will be decided in 
the next few months, I think.
    Mr. Gibson. Yes. You know, my experience with this, I led 
the brigade task force that was part of the global response 
force, and clearly we had pressing priorities all over the 
globe. So, you know, this had to move down in the 
prioritization, but of course over time we are incurring more 
risk when we do that.
    I would assess our risk at very high risk at this point to 
be able to conduct a full-blown joint forcible entry. When you 
look at the fact that, as you know, it is a very complex 
operation, and we often had to pull platforms from all across 
the eastern United States and in some cases all throughout the 
continental United States to be able to support these 
exercises, understandably.
    And I know you are juggling a lot of things. And what I am 
trying to get a sense of is where we are today in terms of the 
Air Force's ability to support. It may very well be that we are 
not able to afford doing this six times a year, but what is 
that right frequency, are we going to be able to pull this all 
together, the entire joint team? Because otherwise I don't know 
that the American people and the people's representatives fully 
understand the risk that we are incurring over time.
    General Hesterman. Sir, what I will tell you is whatever 
size we end up, our leadership is committed to it being 
exceptionally capable. So, you know, I think we do know how to 
do this. And I think the problem will be is in how many places 
we can do it, you know, and because obviously we don't get to 
decide where it is needed.
    But, you know, our capability, I think, will be pure. How 
much of that capability exists, I think, is the subject of this 
hearing.
    Mr. Gibson. Yes. And lastly, I think your pilots will tell 
you that, you know, the longer you go without doing these type 
of exercises, the more difficult it is to try to restart and to 
pull that capability together.
    General Hesterman. No argument, sir.
    Mr. Gibson. Yes.
    Okay. Thanks very much, Chairman.
    Mr. Akin. Thank you. Good questions.
    One last question to Congresswoman Bordallo.
    Ms. Bordallo. Yes. Thank you very much, Mr. Chairman.
    I just want a clarification before we disperse this 
afternoon. And I think you made some comments, and others here, 
and I have heard them as well: Why don't we bring our troops 
back from these foreign countries? This would save us millions 
and millions of dollars.
    Well, I would, since we have three very important officers 
here before us, I am sure they will be able to answer these 
questions. And I will take these two countries: Korea and 
Japan.
    Now, aside from the need for forward presence to deter 
potential adversaries, how much host-nation support are Japan 
and Korea providing to station our troops in their countries?
    My understanding is that they are paying the bill. And it 
is a significant amount of money--billions of dollars--for 
MILCON [Military Construction], base operations, facilities 
sustainment. In fact, it would cost us a lot more to send all 
our troops back to the United States. We would have to build 
bases. We would have to build housing.
    Am I right in this? And I don't think they charge us any 
kind of lease or lots of money for using their properties. Am I 
correct in this? Yes, in Japan and Korea, we don't pay leasing 
fees and they are providing all the facilities and so forth. Is 
this correct?
    Admiral Clingan. Congresswoman, I cannot confirm for you 
exactly what costs the United States Navy, in our case, is 
paying and what costs Japan is carrying. But I do know that 
Japan, for example, does pay a significant amount of money to 
facilitate hosting us there.
    Ms. Bordallo. General.
    General Mills. I would agree with the admiral. I will have 
to get back to you on the exact split between what the host 
nation provides and what we provide.
    I would absolutely agree with you that if we brought all 
the marines back home, that it would be a MILCON bill back in 
the states as our facilities are designed and built and 
structured that a certain percentage of our force will be 
forward-deployed and therefore they don't need barracks or 
office space or training grounds to operate on.
    So I absolutely concur with the second half of your 
comment.
    Ms. Bordallo. And General.
    General Hesterman. Ma'am, we will get you the exact 
numbers, but I believe your premise is correct.
    [The information referred to can be found in the Appendix 
on page 75.]
    Ms. Bordallo. Thank you. I just wanted to clarify that, Mr. 
Chairman, that it would cost us more to bring our troops back 
home than when they are stationed over in places like Japan and 
Korea, where they are picking up the tab.
    Mr. Akin. I very much appreciate all of you sticking with 
us today on the committee and for your testimony. I think that 
the message is pretty straightforward that we have gone about 
as far as she can go on this thing. And I think you have 
developed that in terms of a fair amount of detail for us.
    So thank you all for coming out, Generals and Admiral, and 
I look forward to the next time. God bless you all.
    Thanks.
    [Whereupon, at 1:15 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            November 3, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 3, 2011

=======================================================================

      
                     Statement of Hon. W. Todd Akin

     Chairman, House Subcommittee on Seapower and Projection Forces

                               Hearing on

              A Day Without Seapower and Projection Forces

                            November 3, 2011

    Our witnesses represent those organizations within their 
respective services which are responsible for development of 
the strategy by which their departments can build a program by 
which to execute that strategy. Once the elements of the 
program have been defined, the necessary resources can be 
determined. Usually there will never be enough resources to 
execute the strategy with little or no risks in all of the 
elements, and a prioritization process is necessary. The less 
resources--the more risk.
    The thing about risk in the Armed Services of the United 
States usually means the higher the risk, the more casualties 
are taken should a conflict occur.
    We are about to enter a period of constrained resources, 
and I am sure our witnesses are well aware of the impacts in 
their respective services of the roughly $465 billion cut to 
the budget over the next 10 years from internal Department cuts 
and the enactment of the Budget Control Act. To further 
complicate things, if the Special Committee for Deficit 
Reduction fails to find an additional $1.2 trillion in cuts 
over the next 10 years, and a sequestration scenario ensues, 
the Defense Department will face the potential for additional 
cuts of roughly another $600 billion.
    This all happened so fast--and I do not envy our witnesses' 
predicament of having to developing strategies that have been 
dictated by budgets--it should be the other way around. I am 
sure the subcommittees would be interested in hearing the 
witnesses' thoughts on this, as well as on what prioritization 
processes you are using to comply with the $465 billion cut, 
and what would happen were sequestration to occur. I want to 
thank the witnesses for appearing today, and look forward to 
your testimony.

                   Statement of Hon. J. Randy Forbes

               Chairman, House Subcommittee on Readiness

                               Hearing on

              A Day Without Seapower and Projection Forces

                            November 3, 2011

    I want to thank Chairman Akin for co-chairing this hearing, 
and to thank all of our members and the distinguished panel of 
experts and welcome them to today's hearing focused on what the 
future of seapower and projection capabilities may portend in 
an era of austere budgets.
    As Chairman Akin already offered, I want to add my thanks 
to our witnesses for being with us this morning to continue 
this very important dialogue regarding potential cuts to 
defense, potential impacts to the future force, and the 
readiness of our maritime and projection assets today and in 
the future.
    I believe it is vital that you are all here with us today 
to continue to inform the members of these subcommittees and 
the public in advance of the ``super committee'' delivering its 
ultimate recommendations to the Congress. I will keep my 
remarks short in order that we proceed to the heart of the 
discussion.
    The Readiness Subcommittee has convened numerous times in 
the past few months to hear from each of the Services, and most 
recently the Vice Chiefs regarding the current state of the 
force, the increased risk, and the uncertainty of the future 
and potential impacts to military readiness if sequestration 
were enacted.
    While there seems to be a prevailing consensus that 
sequestration under the Budget Control Act would be devastating 
to the military, I remain severely concerned that we have 
already gone too far. Last year, when the DOD began closing 
Joint Forces Command without analysis, I told members this 
would soon be coming to a theater near you. Currently we are 
dealing with the $465 billion DOD cut that was arbitrarily made 
without analysis to underpin that number. Now, another shoe has 
dropped with regard to civilian personnel. The Air Force 
announced just yesterday that they will eliminate 16,500 
civilian positions in Fiscal Year 2012. That is just the Air 
Force and only one fiscal year. What happens if the other shoe 
drops under sequestration? With all of these individual 
decisions, the cumulative effect will be devastating. At this 
point I would say get ready, the show is only just beginning.
    This leads me to reiterate my concern regarding additional 
short-term decisions that could lead to the potential 
``hollowing of the force'' under sequestration. That would be a 
situation that cannot be quickly reversed. General Dunford 
articulated this very point before the Readiness Subcommittee 
last week, regarding concerns that ``we will make these cuts 
without an adequate appreciation of the strategic implications, 
the implications on our readiness, or the implications of 
breaking faith. And also . . . that folks would think that if 
we get it wrong, well, we can just simply fix it in a year or 
two. That is not possible, particularly in the latter category. 
And if we break the trust of our marines, sailors, soldiers and 
airmen today, it would be decades before we get it back.''
    The question I continue to ask is what is the risk to the 
national defense of our country if we continue making some of 
the cuts to defense we hear being discussed in Washington? 
There are never enough resources to eliminate all of our risks, 
but, there must be a strategic assessment to underpin the 
decisions. Instead, I feel that currently the DOD is just 
responding to budgetary pressures, the result of which could 
severely degrade the military's ability to operate.
    In Vice Admiral Clingan's written testimony for this 
hearing today, he indicates ``Without question, the Fleet is 
operating now at an unsustainable level. To best meet the 
Combatant Commanders' need for deployed Navy forces since 
September 11, 2001 and to respond to emergent requirements, we 
have increased the frequency and average length of unit 
deployments. This has resulted in reduced training time; 
reduced maintenance availabilities; a narrowing of pre-
deployment training for certain units to mission-specific 
tasks; and an accelerated aging of our ships and aircraft.''
    Consistent with the testimony that Vice Admiral Burke 
provided before the Readiness Subcommittee, the Navy has been 
operating in a sustained surge, precluding the opportunity to 
do deep maintenance on fleet assets. How will that impact the 
future force? Looking forward, will our forces be ``ready'' for 
the mission they are called upon to do when the time comes?
    While there are many contributing factors that brought us 
to this point today, we are currently at a crossroads where we 
have time yet to prepare for the many tough decisions that lie 
ahead. In doing so, we must not forget our obligation to ensure 
our men and women in uniform are given all the tools necessary 
for the job we ask them to do.
    I look forward to learning from each of our witnesses about 
how we cope with these challenging fiscal times while also 
maintaining a ready military.

[GRAPHIC] [TIFF OMITTED] T1529.001

[GRAPHIC] [TIFF OMITTED] T1529.002

[GRAPHIC] [TIFF OMITTED] T1529.003

[GRAPHIC] [TIFF OMITTED] T1529.004

[GRAPHIC] [TIFF OMITTED] T1529.005

[GRAPHIC] [TIFF OMITTED] T1529.006

[GRAPHIC] [TIFF OMITTED] T1529.007

[GRAPHIC] [TIFF OMITTED] T1529.008

[GRAPHIC] [TIFF OMITTED] T1529.009

[GRAPHIC] [TIFF OMITTED] T1529.010

[GRAPHIC] [TIFF OMITTED] T1529.011

[GRAPHIC] [TIFF OMITTED] T1529.012

[GRAPHIC] [TIFF OMITTED] T1529.013

[GRAPHIC] [TIFF OMITTED] T1529.014

[GRAPHIC] [TIFF OMITTED] T1529.015

[GRAPHIC] [TIFF OMITTED] T1529.016

[GRAPHIC] [TIFF OMITTED] T1529.017

[GRAPHIC] [TIFF OMITTED] T1529.018

[GRAPHIC] [TIFF OMITTED] T1529.019

[GRAPHIC] [TIFF OMITTED] T1529.020

[GRAPHIC] [TIFF OMITTED] T1529.021

[GRAPHIC] [TIFF OMITTED] T1529.022

[GRAPHIC] [TIFF OMITTED] T1529.023

[GRAPHIC] [TIFF OMITTED] T1529.024

[GRAPHIC] [TIFF OMITTED] T1529.025

[GRAPHIC] [TIFF OMITTED] T1529.026

[GRAPHIC] [TIFF OMITTED] T1529.027

[GRAPHIC] [TIFF OMITTED] T1529.028

[GRAPHIC] [TIFF OMITTED] T1529.029

[GRAPHIC] [TIFF OMITTED] T1529.030

[GRAPHIC] [TIFF OMITTED] T1529.031

[GRAPHIC] [TIFF OMITTED] T1529.032

[GRAPHIC] [TIFF OMITTED] T1529.033

[GRAPHIC] [TIFF OMITTED] T1529.034

[GRAPHIC] [TIFF OMITTED] T1529.035

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            November 3, 2011

=======================================================================

      
             RESPONSES TO QUESTION SUBMITTED BY MR. LARSEN

    Admiral Clingan. From 1991 through 2004, naval forces were 
allocated by the Joint Staff through the Global Naval Force Presence 
Policy. This policy dictated the COCOM allocation via a long range 
schedule. The current Global Force Management (GFM) process, which 
started in 2005, allocates forces based on yearly COCOM demand. 
Accessible summary records are available going back to 2007, as 
follows:

    Percent of COCOM unit demand fulfilled:


------------------------------------------------------------------------
                                                    EUCOM/
    Year        Global      CENTCOM      PACOM      AFRICOM    SOUTHCOM
------------------------------------------------------------------------
    2007     90           98          81          82          75
------------------------------------------------------------------------
    2008     76           100         82          73          45
------------------------------------------------------------------------
    2009     69           71          74          57          65
------------------------------------------------------------------------
    2010     64           73          74          54          76
------------------------------------------------------------------------
    2011     59           76          72          53          25
------------------------------------------------------------------------
    2012     53           56          65          48          29
------------------------------------------------------------------------


    [See page 24.]

    General Mills. [The information referred to is classified and 
retained in the committee files.] [See page 24.]

    General Hesterman. The Air Force fulfills nearly 100% of the Joint 
Staff-validated requirements that are subsequently tasked by the 
Secretary of Defense. The Air Force also supports a significant number 
of requirements from in garrison--also referred to as ``deployed in 
place.'' Many space and cyber capabilities are provided from stateside 
locations, and the vast majority of our Remotely Piloted Aircraft are 
controlled from non-deployed units in the United States. While not 
physically deployed, these forces operate on the Combatant Commander's 
battle rhythm in support of theater objectives. The Air Force remains 
fully committed to supporting overseas contingency operations and the 
high rotational demand from our Combatant Commanders.
    Within the Global Force Management process run by the Joint Staff, 
the Combatant Commanders submit their force requirements for needed 
capabilities to be filled from across the Services. Requests are not 
necessarily made for Air Force, Army or Navy forces--they are requests 
for capability such as close air support, combat engineering, etc. 
Unfortunately the COCOM's needs in some areas far exceed the combined 
Services' capacity to fill, so requests are prioritized, coordinated 
and then sourced from the available forces (this requires Secretary of 
Defense approval). Since the Services all have some measure of air 
capability, the Air Force does not fill all airpower requirements. Due 
to these factors the Air Force does not report the percentage of 
initial requests that enter the Global Force Management process and are 
ultimately not filled as a shortfall in AF capability. [See page 24.]
            RESPONSES TO QUESTION SUBMITTED BY MS. BORDALLO
    Admiral Clingan. The Republic of Korea (RoK) provides the U.S. Navy 
approximately 64% for logistics cost and 70% for salaries under a 
Special Measures Agreement. The RoK provided $19M in 2009 for the 
construction of a Fleet and Family Town Center, $5M in 2011 (68% of the 
annual Navy budget) for Logistics Cost sharing (acquisition of 
logistics equipment, supplies, and/or services), and $4.5M in 2011 (71% 
of salaries) for Labor Cost Sharing. The U.S. Navy does not pay for the 
land and facilities provided for its use under the Status of Forces 
Agreement; this currently totals 95 acres and 344 buildings in Korea.
    The Government of Japan (GoJ) provides approximately 75% of the 
Navy's total utility bill which covers electricity, water, sewer, and 
gas for heating ($62M in 2011). The GoJ voluntarily initiated the Japan 
Facilities Improvement Program which provides funding of approximately 
$200M per year for services. This program supports infrastructure 
capital investment similar to MILCON but it does not provide support to 
any base operations or facilities.

    The Republic of Korea (ROK)

    1.) Salaries: Navy Region Korea has received the following amounts 
for Labor. The ROK Government pays 71% of salaries for Korean 
Government Service (KGS) employees.
        <bullet>  FY 09 $5.2M
        <bullet>  FY 10 $4.1M
        <bullet>  FY 11 $4.5M

    2.) Leases: U.S. Navy does not pay for the land and facilities 
provided for its use under Status of Forces Agreement grant. This 
currently totals 95 acres and 344 buildings in Korea.

    3.) Construction: In recent years Navy Region Korea has received 
the following host nation funded construction funds, totaling $32.7M.
        <bullet>  CY07 Bachelor Enlisted Quarters $5.7M--Completed 2011
        <bullet>  Natural Gas Line $2.7M--Completed 2010
        <bullet>  Vehicle Maintenance Facility $2.5M--Under 
        construction
        <bullet>  Fire Station $2.9M--Completed 2011
        <bullet>  CY09 Fleet and Family Town Center $18.9M--Under 
        construction

    4.) Sustainment: Navy Region Korea has received the following 
amounts for sustainment/equipment from the host nation, totaling $9.6M.
        <bullet>  CY09 $2.1M
        <bullet>  CY10 $2.6M
        <bullet>  CY11 $4.9M

    5.) Utilities: Navy Region Korea does not receive utility funding 
for consumption, but are given the lowest industrial rates offered. 
However, over the past decade, the Korean government has paid for a 
completely new electrical system; water storage tank and pipeline 
system; and natural gas line installation; shore power mounds at Piers 
11 and 22 for use by USN ships; and has funded a number of green energy 
projects via host nation construction and sustainment funds, greatly 
reducing Navy costs for utilities.

    6.) Other funding: Other in-kind support provided includes highway 
toll waivers and docking and security patrols at ROK Navy bases for 
visiting U.S. Navy ships.

    Government of Japan (GOJ)

    1.) Salaries: Labor Cost Sharing Program under Special Measures 
Agreement Article I. The Government of Japan has for over two decades 
funded 85-90 percent of the overall labor costs of DON's largest 
foreign national workforce worldwide--13,703 personnel (9,423 with Navy 
and 4,280 with Marine Corps) who perform work supporting the United 
States Government's (USG) forward deployment strategy in the western 
Pacific, including ship repair, supply, communications and 
infrastructure maintenance. Most recent financial information in 
existence is Japanese Fiscal Year (JFY) 10 (1 Apr 10-31 Mar 11). The 
weighted average actual exchange rate obtained by Defense Finance & 
Accounting Service for payment of the USG portion was 82.2 yen per U.S. 
dollar. Budget Execution Rates and other rates used often vary 
throughout the year or by activity.

    <bullet>  Navy:
        <bullet>  <yen>38,936,621,525 was spent on Master Labor 
        Contracts (MLC)s
        <bullet>  <yen>5,924,115,963 was covered by USG
        <bullet>  <yen>33,012,505,562 was covered by GOJ

    <bullet>  Marines:
        <bullet>  <yen>14,645,746,145 was spent on MLCs
        <bullet>  <yen>859,315,904 was covered by USG
        <bullet>  <yen>13,786,430,241 was covered by GOJ

    2.) Leases: USN does not pay the GOJ for the use of land and 
facilities provided under the Status Of Forces Agreement (SOFA) grant. 
USN does have exclusive use of approximately 16,000 acres of land and 
24,109 facilities with Plant Replacement Value of approximately 
$12,873M in Japan. The only type of ``lease or rental'' payment made is 
$209,894/year to a private Japanese company for 50 apartment units that 
houses the ship repair workforce surge from Puget Sound Naval Shipyard 
during CVN maintenance.
    3.) Construction: Japanese Facilities Improvement Program (JFIP) 
provides infrastructure capital investment similar to MILCON, but 
project selection, programming, and award differs greatly from MILCON. 
Funding levels have been steadily declining since the mid 1990s from 
approximately $1.0B to less than $200M a year since FY08 through FY12 
for all the services. Funding varies by year since JFIP vary depending 
on projects programmed in each year. Historically, Navy has received 
approximately \1/3\ of the annual JFIP.
    4.) Sustainment: USN does not receive any funds from the GOJ for 
base operation support or facilities sustainment.
    5.) Utilities: Utilities Cost Share Program provides GOJ funds to 
help offset USN's utility cost of electricity, water, sewer, and gas 
for heating. USN receives
<yen>6.3 billion annually, approximately $68.0M a year depending yen/
dollar exchange rate, which covers approximately 75% of USN's total 
utility bill. For past three years, USN received JFY09 $68.0M, JFY10 
$73.0M, and JFY11 $62.0M respectively.
    6.) Other funding: N/A [See page 30.]

    General Mills. Government of Korea Logistics Cost Share support 
received for the past 3 fiscal years follows:

    FY09:
        <bullet>  Labor--$1,202,767
        <bullet>  Vehicles--$43,640
        <bullet>  Aircraft In-service Repair--$163,583
        <bullet>  Service Depot Level Maintenance (SDLM) for CH-53--
        $7,046,340
        <bullet>  Supplies--$0
        <bullet>  Facilities sustainment--$254,826

    FY10:
        <bullet>  Labor--$1,011,896
        <bullet>  Vehicles--$194,731
        <bullet>  Aircraft In-service Repair--$148,152
        <bullet>  SDLM for CH-53--$6,258,065
        <bullet>  Supplies--$0
        <bullet>  Facilities sustainment--$381,848

    FY11:
        <bullet>  Labor--$1,061,339
        <bullet>  Vehicles--$257,605
        <bullet>  Aircraft In-service Repair--$104,374
        <bullet>  SDLM for CH-53--$6,049,020
        <bullet>  Supplies--$2,019,051
        <bullet>  Facilities sustainment--$695,951

    Government of Japan provided Utility and Labor support: (Please 
note that the Japanese Fiscal Year begins on 1 April and ends on 31 
March)

    FY09:
        <bullet>  Labor Cost Sharing--$147,549,249
        <bullet>  Utility Cost Sharing--$60,911,050

    FY10:
        <bullet>  Labor Cost Sharing--$149,067,628
        <bullet>  Utility Cost Sharing--$62,051,558

    FY11:
        <bullet>  Labor Cost Sharing--$158,721,331
        <bullet>  Utility Cost Sharing--$64,983,396

    Government of Japan provided support under the Japanese Facilities 
Improvement Program (JFIP) for various levels of effort including MCAS 
Iwakuni, MCB Butler and CATC Camp Fuji:

    FY09 MCAS Iwakuni--$86 Million
    FY09 MCB Butler--$2 Million
    FY09 Camp Fuji--$0

    FY10 MCAS Iwakuni--$29 Million
    FY10 MCB Butler--$800,000
    FY10 Camp Fuji--$300,000

    FY11 MCAS Iwakuni--$35 Million
    FY11 MCB Butler--$2.1 Million
    FY11 Camp Fuji--$200,000

    Government of Japan lease payments made to land owners: There are 
23,000 land owners on Okinawa who are paid by the Japanese Government. 
Land owners are paid two times per year in March and July. The 
following figures are payments made to land owners Okinawa wide to 
include the Marine Corps, Air Force, and Army.

    JFY08--78,375 mil Yen (conversion rate 114.7781) = $682,839,322
    JFY09--79,090 mil Yen (conversion rate 114.3007) = $691,946,768
    JFY10--79,295 mil Yen (conversion rate 108.9969) = $663,275,744

    The U.S. Government does not pay rent for land or facilities in 
Japan.

    The Government of Japan does not fund any facilities maintenance.

    Government of Japan (GOJ) has constructed family housing under the 
Special Action Committee on Okinawa (SACO) agreement. GOJ has only 
constructed four of eight phases of new family housing. The remaining 
four phases are on hold. The GOJ will construct the 56 housing units 
that will serve the new hospital. Construction is tentatively scheduled 
for FY15. [See page 30.]

    General Hesterman. Japan will provide $332 million and Korea will 
provide $125 million to support the United States Air Force for FY12. 
[See page 30.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            November 3, 2011

=======================================================================

      
                    QUESTION SUBMITTED BY MR. FORBES

    Mr. Forbes. Adoption of advanced predictive logistics technologies 
to enable major cost avoidance: Section 328 of the FY 2010 NDAA 
required DOD to develop a comprehensive plan for improving inventory 
management systems, including addressing weaknesses in demand 
forecasting procedures. GAO's review of the Comprehensive Inventory 
Management Improvement Plan, submitted to Congress in January of this 
year, cited difficulties in predicting demand patterns as a key 
challenge in implementing improved forecasting. However, we are aware 
that several program offices have already effectively addressed this 
challenge by adopting advanced modeling and simulation tools, and the 
results have been billions of dollars in cost avoidance and savings. If 
some program offices have already dealt with this problem, what is 
preventing wider application of these tools in the immediate future 
across each of the services?
    Admiral Clingan. The objective of the Comprehensive Inventory 
Management Improvement Plan (CIMIP) is to ensure DOD buys only what we 
need and retains only what we use. This OSD-led effort involves 
considerable sharing of ideas and lessons learned on techniques to 
improve forecasting as well as vetting ideas and adopting proven 
techniques across DOD.
    As part of our Enterprise Resource Planning implementation, Navy is 
currently implementing a SAP1 business solution with an enhanced 
forecasting module which will improve our demand forecasting 
capabilities and allow for more efficient management of Navy wholesale 
inventories. Additionally Navy is utilizing a Multi-Indenture Multi-
Echelon Readiness Based Sparing (RBS) capable model called Supply 
Planning and Optimization (SPO) to compute wholesale and retail stock 
levels for aviation programs. This model uses advanced RBS techniques 
to optimize inventory levels across the enterprise, delivering weapon 
systems readiness at least cost.
    While customer demands are often difficult to forecast due to 
operating tempo changes and low weapon system population density, Navy 
is currently working to expand SPO utilization to maritime retail 
products and is also researching further integration of wholesale and 
retail inventory computation. Navy continues to pursue opportunities to 
improve demand forecasting; as successful techniques are identified the 
challenge lies in understanding how to apply those techniques to what 
are often times widely different customer bases. Demand patterns for 
aviation platforms, where there are thousands of airframes, can be 
fundamentally different from those for surface ship or submarine 
platforms with very small populations.
    Furthermore, OSD (Supply Chain Integration) is beginning a study in 
which the Navy and Air Force will explore alternative demand 
forecasting methodologies for low-demand repairable items.

    Mr. Forbes. Adoption of advanced predictive logistics technologies 
to enable major cost avoidance: Section 328 of the FY 2010 NDAA 
required DOD to develop a comprehensive plan for improving inventory 
management systems, including addressing weaknesses in demand 
forecasting procedures. GAO's review of the Comprehensive Inventory 
Management Improvement Plan, submitted to Congress in January of this 
year, cited difficulties in predicting demand patterns as a key 
challenge in implementing improved forecasting. However, we are aware 
that several program offices have already effectively addressed this 
challenge by adopting advanced modeling and simulation tools, and the 
results have been billions of dollars in cost avoidance and savings. If 
some program offices have already dealt with this problem, what is 
preventing wider application of these tools in the immediate future 
across each of the services?
    General Mills. The Marine Corps cannot answer the question on 
behalf of the other services. However the Marine Corps is applying 
predictive tools to its inventories as follows:
    At this time, the Marine Corps is in the process of implementing 
Global Combat Support System-Marine Corps (GCSS-MC) and is currently 
using and exploring the full potential of the Advance Planning Suite 
(APS) of applications inherent in the system to implement total force 
demand planning. APS is comprised of Oracle Demand Planning (ODP), 
Inventory Optimization (IO) and Advance Supply Chain Planning (ASCP). 
Marine Corps Logistics Command administers the plans while the Marine 
Forces (MARFORS) provide input and ultimately execute to their specific 
requirements and constraints. The Marine Corps is using 24 months of 
shipment history to produce a demand forecast one year in the future. 
As this process matures, the Marines will observe, measure, and modify 
our forecasts to best support our demand planning while minimizing the 
amount of inventory on hand. Additionally an enterprise forecast will 
enable better collaboration and communication of Marine Corps 
requirements with our suppliers. The GCSS-MC benefits realized are 
increased accountability, enhanced visibility, and a right-sized 
inventory to reduce inventory carrying costs.

    Mr. Forbes. Adoption of advanced predictive logistics technologies 
to enable major cost avoidance: Section 328 of the FY 2010 NDAA 
required DOD to develop a comprehensive plan for improving inventory 
management systems, including addressing weaknesses in demand 
forecasting procedures. GAO's review of the Comprehensive Inventory 
Management Improvement Plan, submitted to Congress in January of this 
year, cited difficulties in predicting demand patterns as a key 
challenge in implementing improved forecasting. However, we are aware 
that several program offices have already effectively addressed this 
challenge by adopting advanced modeling and simulation tools, and the 
results have been billions of dollars in cost avoidance and savings. If 
some program offices have already dealt with this problem, what is 
preventing wider application of these tools in the immediate future 
across each of the services?
    General Hesterman. The Department of Defense Comprehensive 
Inventory Management Improvement Plan includes a Demand Forecasting 
sub-plan which lays out a course of action to improve the inventory 
level setting process, demand planning accuracy, and forecast accuracy. 
The Air Force is collaborating with other components to baseline 
current demand forecast methodologies, review best practices, and 
establish diagnostic metrics on forecast accuracy and forecast bias. In 
our review of best practices, we look across all levels in our supply 
chain.
    Contributing to improved forecasting, the Air Force has undertaken 
a Logistics Modeling and Simulation (M&S) effort which has identified 
and catalogued M&S tools in use or available across the Air Force. 
However, M&S tools used by our acquisition program offices are not 
sustainment inventory forecasting models and have limited application 
to Air Force Supply Chain Management.
                   QUESTION SUBMITTED BY MR. COFFMAN
    Mr. Coffman. What is the number of Flag Officers in the Navy in 
1990, 1995, 2000, 2005, and 2010? What was the total number of 
personnel in your service in 1990, 1995, 2000, 2005, and 2010?
    Admiral Clingan.

    Flag Officers:
        <bullet>  1990: 256
        <bullet>  1995: 218
        <bullet>  2000: 219
        <bullet>  2005: 213
        <bullet>  2010: 253

    Total Personnel:
        <bullet>  1990: 582,854
        <bullet>  1995: 434,617
        <bullet>  2000: 373,193
        <bullet>  2005: 362,941
        <bullet>  2010: 328,303

    The increase in Flag Officers between 2005 and 2010 primarily 
reflects the growth in Joint Flag/General Officer billet requirements.
    Mr. Coffman. What is the number of General Officers in the Marine 
Corps in 1990, 1995, 2000, 2005, and 2010? What was the total number of 
personnel in your service in 1990, 1995, 2000, 2005, and 2010?
    General Mills.

------------------------------------------------------------------------
                                  Other
     Year           GOs          Officers       Enlisted        Total
------------------------------------------------------------------------
      1990     70             19,868         176,639        196,577
------------------------------------------------------------------------
      1995     68             17,714         156,724        174,506
------------------------------------------------------------------------
      2000     80             17,849         155,361        173,291
------------------------------------------------------------------------
      2005     80             18,803         161,141        180,025
------------------------------------------------------------------------
      2010     86             21,221         181,134        202,441
------------------------------------------------------------------------

    Mr. Coffman. What is the number of General Officers in the Air 
Force in 1990, 1995, 2000, 2005, and 2010? What was the total number of 
personnel in your service in 1990, 1995, 2000, 2005, and 2010?
    General Hesterman. In 1990, there were 333 general officers in the 
Air Force and the total number of personnel was 530,861.
    In 1995, there were 274 general officers in the Air Force and the 
total number of personnel was 396,376.
    In 2000, there were 271 general officers in the Air Force and the 
total number of personnel was 351,375.
    In 2005, there were 273 general officers in the Air Force and the 
total number of personnel was 349,369.
    In 2010, there were 315 general officers in the Air Force. 300 of 
these general officers were in authorizations contained in the 2009 
National Defense Authorization Act. The additional officers were in 
positions that were exempted by title 10 of the U.S. Code and therefore 
did not count against Air Force authorizations. The total number of Air 
Force personnel was 329,638.
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. What is the impact of reducing our forward power 
globally on our organic base here at home? Will there be reductions in 
the amount of work that is required to be done by the military organic 
base? Will the military be able to keep our capabilities warm here at 
home if we pull back our service members and ships?
    Admiral Clingan. The Navy has continued to operate globally even 
while providing significant forces to Commander, U.S. Central Command. 
Following the end of combat operations in Afghanistan, the Navy expects 
to continue to operate forward, employing a combination of Forward 
Deployed Naval Forces and rotational forces, at a sustainable level. 
While we continuously seek the most efficient and cost effective 
approach for ship and aviation depot maintenance, both organic Navy and 
private sector capabilities will remain in demand to support Navy 
maintenance requirements. As it has historically, this demand will 
largely reflect our force structure; the operational tempo of our 
forces; and available resources.
    Mr. Schilling. How can we maintain force projection in the current 
fiscal climate? Are there roadblocks impeding the defense industrial 
base that could be fixed to create a more efficient system and help 
project better forward strength at a lower cost?
    Admiral Clingan. Navy rotational forces have, and will continue to, 
reset-in-stride to execute our global responsibilities. While we 
continue to seek the most efficient and cost effective approach for 
ship and aviation depot maintenance, both organic Navy and private 
sector capabilities will remain in demand to support Navy maintenance 
requirements. The Fleet Response Plan remains the Navy's force 
generation model, and is a proven means to provide ready forces to the 
Combatant Commanders globally, in addition to forces ready to surge in 
response to crises.
    Sustaining the defense industrial base is critical to our war 
fighting capability. To this end, potential efficiencies include:
        <bullet>  Clearly defining core industrial requirements in the 
        public and private sectors to sustain present capabilities and 
        field new capabilities.
        <bullet>  Establishing the roles of both public depots and 
        private industry in meeting these core requirements.
        <bullet>  Increased partnering between public and private 
        sectors. Depot maintenance should not be thought of as a fixed 
        activity or location, but as a level of maintenance that must 
        be performed by highly skilled artisans within a core
        competency.
        <bullet>  Effective integration of product support. This would 
        include sharing of technical data, public-private partnering in 
        both technical and trade skills, and maximizing use of 
        capabilities across our public and private industrial
        facilities.
    The new DOD Defense Strategy and supporting Fiscal Year 2013 budget 
both focus on balancing DOD force structure to address warfighting 
needs while sustaining the industrial base. Deliberations on Navy's 
force structure are ongoing by the Secretary of the Navy and Office of 
the Secretary of Defense; results will be submitted in the President's 
Fiscal Year 2013 budget request. Navy is confident our resulting force 
structure will be aligned with the new Defense Strategy.

    Mr. Schilling. What is the impact of reducing our forward power 
globally on our organic base here at home? Will there be reductions in 
the amount of work that is required to be done by the military organic 
base? Will the military be able to keep our capabilities warm here at 
home if we pull back our service members and ships?
    General Mills. Reducing forward presence will have a number of 
impacts on the forces in the contiguous United States (CONUS).
    First, the number of un-planned deployments will increase. Instead 
of reacting to crisis with forces that are positioned forward--we will 
have to deploy CONUS forces to respond. We currently maintain forces 
that are ready to rapidly deploy--these forces will be required to 
deploy more frequently. In the past 20 years we would have had to 
deploy CONUS reaction forces more than 100 times--for periods of up to 
6 months.
    Forces used to transport crisis response forces (air and sea lift) 
will be at even greater demand. Crises require a rapid response--and 
most require a force that is flexible and responsive to a rapidly 
changing situation. Marines on the ground have proven to be one of the 
best alternatives for these types of situations. If we reduce our 
forward presence we will have two options when crisis develop: use 
diplomacy and support from partner nations to meet our objectives, or 
rapidly deploy a force. If partner nations are willing to provide 
airfields and ports, we can respond to many crisis using maritime 
prepositioning forces and strategic airlift.
    Mr. Schilling. How can we maintain force projection in the current 
fiscal climate? Are there roadblocks impeding the defense industrial 
base that could be fixed to create a more efficient system and help 
project better forward strength at a lower cost?
    General Mills. Although the world is continuing to change and 
budgets continue to fluctuate, America's requirement to maintain a 
forward based force-in-readiness remains. Physical presence matters. It 
shows our economic and our military commitment to a particular region. 
It deters potential adversaries, assures our friends, and permits 
response in a timely manner to crises. Our current combination of 
amphibious, air borne and, prepositioned forces provide the minimal 
capacity to realistically address this challenge. During these times of 
constrained resources, we remain committed to refining operations, 
identifying efficiencies, and reinvesting savings to conserve scarce 
public funds. For 7.8% of the total DOD budget, our Nation gains the 
ability to respond to unexpected crises, from humanitarian disaster 
relief efforts, to non-combatant evacuation operations, to conduct 
counter-piracy operations, or full scale combat.
    The Marine Corps is not aware of roadblocks impeding the industrial 
base. That being said, we recognize that our operational capabilities 
are enabled by the diverse industrial base. The Marine Corps works 
aggressively to identify and mitigate activities or decisions that 
could unintentionally destabilize the base upon which we depend.

    Mr. Schilling. What is the impact of reducing our forward power 
globally on our organic base here at home? Will there be reductions in 
the amount of work that is required to be done by the military organic 
base? Will the military be able to keep our capabilities warm here at 
home if we pull back our service members and ships?
    General Hesterman. A forward presence reduction could impact the 
ability of CONUS bases to absorb additional force structure, including 
limitations of CONUS airspace and ranges to support training 
requirements. Also, increased airlift requirements would extend 
deployment timelines, affect joint force synchronization, and add risk 
to Combatant Commander's Operational Plans. Further, reduced forward 
presence would degrade our interoperability and capability to building 
partnerships with friends and allies. Lastly, such reductions could 
jeopardize our ability to assure access to overseas locations as well 
as overcome anti-access or area-denial measures--all are considerations 
when determining our global force posture.
    Mr. Schilling. How can we maintain force projection in the current 
fiscal climate? Are there roadblocks impeding the defense industrial 
base that could be fixed to create a more efficient system and help 
project better forward strength at a lower cost?
    General Hesterman. Ensuring our ability to project force in the 
current fiscal environment involves making difficult decisions about 
our force posture. Limited budget resources may compel a gradual shift 
away from our current posture to one that provides force projection 
capability more efficiently and allows us a quick reach to emerging 
areas of strategic interest. Equally important is the need to avoid a 
``hollowing out'' of the force. A smaller, highly capable and ready 
force is preferable to a large, less-ready force. Finally, there is no 
escaping the need to modernize our forces. The future operating 
environment will challenge us in ways that our current capabilities may 
not be able to overcome. Necessary modernization efforts include, but 
are not limited to, systems that ensure better interoperability and 
integration both within the services as well as with allied nations.
    As a general comment, the more technological breadth and production 
diversity that exists within the defense industry, the greater our 
chances of procuring and employing projection capability at an 
acceptable cost. The Defense Industrial Base (DIB) underpinning Force 
Projection capabilities, from an AF perspective (e.g., long range 
bombers, air lift and tankers), is not separate from the DIB supporting 
other AF capabilities and those of other Services. As the DIB has 
combined in the upper tier to fewer but more diversified primes, the 
DIB in the lower tiers has also realigned, but the effect is not 
transparent to the AF. Upcoming cuts in defense spending, up to the $1T 
level, will affect the health of the DIB at all levels; however, the 
extent is difficult to predict at this point in time. Lower tier 
fragility will emerge over time as the impacts of decreased spending 
manifest.

                    QUESTION SUBMITTED BY MR. SCOTT

    Mr. Scott. Can you describe how a Day without the U.S. Coast Guard 
would impact the U.S. Navy?
    Admiral Clingan. The full strength and value of our Nation's 
seapower cannot be fully appreciated without considering realized 
without the U.S. Coast Guard. This Service provides unique capabilities 
and authorities that enable it to prevent and respond to a broad array 
of maritime threats and to seamlessly integrate into naval operations 
in all maritime theaters. An invaluable partner and force multiplier, 
Coast Guard forces complement the U.S. Navy's ability to employ the 
global reach, persistent presence and operational flexibility it needs 
to accomplish its strategic imperatives.
    As stated in the 2006 National Fleet Policy Statement, the Coast 
Guard and Navy mutually support and complement each Service's roles and 
missions. To this end, Coast Guard cutters serve alongside U.S. Navy 
ships in the Northern Arabian Gulf and other areas of the world. In 
theater, Coast Guard forces protect seaports of debarkation, the combat 
logistics force, and maritime pre-positioning ships. Coast Guard ships 
deployed individually or with Navy task forces support U.S. Navy 
``Partnership Stations.'' Coast Guard Law Enforcement Detachments serve 
aboard Navy ships performing counter-piracy operations off the Horn of 
Africa and counterdrug operations in the Caribbean and Eastern Pacific. 
The 21st century maritime security environment requires these types of 
cooperative initiatives to effectively protect and promote our national 
maritime interests.
    Because a majority of the world's navies and coastguards are not 
blue-water, power projection forces, many countries routinely accept, 
desire, and explicitly request interaction with the Coast Guard. 
Speaking the language of both civil and military organizations, the 
Coast Guard's inter-agency expertise provides multiple access points 
into foreign nation governments that might otherwise be inaccessible 
through purely military channels. Coast Guard training teams and 
international port security liaisons also assist developing nations 
with building the maritime expertise, infrastructure, domain awareness 
and response capabilities needed to protect their maritime interests. 
This helps develop layered, integrated maritime regimes that promote 
regional security and ultimately contribute to U.S. homeland defense in 
depth.
    The Coast Guard also provides an exceptional first responder 
capability for foreign and domestic disruptions. Events such as 
Hurricane Katrina, Haiti Earthquake Response, and Deepwater Horizon 
demonstrate the Coast Guard's ability to integrate across conjoined 
military (e.g. Navy, National Guard, Air Force, etc.) and non-military 
agencies to provide a timely and highly effective unified response.
    A day without the U.S. Coast Guard would be a significantly more 
difficult day for the U.S. Navy and our Nation.

                   QUESTIONS SUBMITTED BY MR. PALAZZO

    Mr. Palazzo. The Navy is short about 30 ships from the 313 goal set 
by Secretary Mabus as the minimum necessary to meet current operational 
needs. How does the Navy intend to reach its goal in the budgetary 
environment, especially when current shortfalls in maintenance funding 
have left one in five of existing vessels unfit for combat?
    Admiral Clingan. Although less that the 313 ship floor, the current 
Navy battle force of 284 ships provides a fleet capable of meeting 
Combatant Commander demands with manageable risk. Going forward, our 
current shipbuilding and aviation plans balance the anticipated future 
demand for naval forces with expected resources. With anticipated 
funding being flat or declining in the future, we will focus our 
investments to ensure the battle force has the capability for Navy's 
core missions such as ensuring Joint operational access and the 
capacity to remain forward in the most critical regions. Our plans also 
take into account the importance of maintaining an adequate national 
shipbuilding design and industrial base.
    Our deployed ships are materially fit for combat. Ships that are in 
deep maintenance are not ready for combat operations and are a normal 
part of our ongoing Fleet Readiness and Training Process. As for 
operating ships, recent readiness reports by the fleet indicate that 
the trend of higher failure rates by surface ships on inspections by 
the Navy Board of Inspections and Survey is turning--and we will remain 
vigilant and proactive. We conducted a review of Surface Force 
readiness over the last year, which identified a number of root causes. 
These include reduced surface ship and intermediate maintenance center 
manning and the disestablishment (by BRAC 1995) of the surface ship 
life cycle engineering organization. These changes stopped updates to 
ship class maintenance plans, eliminated the technical support to plan 
maintenance periods, and reduced the ability of crews to complete 
required maintenance.
    To address these problems, we put executive-level oversight in 
place and initiated a multi-prong plan to improve surface ship 
readiness. This plan includes increases to surface ship manning, 
restoring organizations to plan and manage ship lifecycle maintenance, 
and reestablishing technical support for planning and conducting 
maintenance periods. These corrections are all in place or in progress. 
We also significantly increased the FY 2011 and FY 2012 baseline Ship 
Maintenance budget submissions (compared to FY 2010). Today, Navy's 
maintenance account is fully funded.
    While our ability to plan and conduct maintenance is much more 
comprehensive, an additional factor affecting surface ship readiness is 
the high operational tempo of the last ten years. Since 2001, underway 
days per ship increased by 15 percent while fleet size decreased by 10 
percent. This reduces the time a ship is available in port to conduct 
maintenance--even if it is pre-planned and fully funded. The Navy is 
investigating options to improve the balance between presence and pre-
deployment training and maintenance requirements, in order to achieve a 
sustainable level of operations that is consistent with the size of the 
fleet.
    Mr. Palazzo. Can we reach the 313 mark, or more as the need arises? 
What is the consequence if we do not reach this minimum number?
    Admiral Clingan. The Fiscal Year 2012 Long-Range Shipbuilding 
Tables submitted to Congress show the fleet reaching 313 ships by 
Fiscal Year 2019. The main assumptions behind this plan are that our 
ships reach their expected service lives and that we and our 
shipbuilders can continue to build and deliver ships on
schedule.
    Today, these key assumptions are not being met. Since 2000, the 
fleet has about 10% fewer ships, and on average each ship spends about 
15% more days underway each year to meet Combatant Commander demands. 
The greater amount of underway time comes at the expense of training 
and maintenance. Today we are unable to complete all the maintenance 
needed on each ship and aircraft, reducing their service lives. 
Resources alone cannot alleviate this issue. We will need to establish 
a sustainable level of deployed forces through the DOD Global Force 
Management process. In conjunction with adjusting the GFM plan, we are 
adjusting our Fleet Readiness and Training Plan to establish a 
sustainable operational tempo and complete required maintenance and 
training between deployments. This will constrain the number of ships 
and aircraft we deliver to Combatant Commanders in the future, but will 
ensure ships and aircraft reach their expected service lives and help 
avoid a further decrease in fleet capacity.
    To reach our ship inventory goals, we also need to build and 
deliver ships on schedule. We continue to work to reduce costs and 
incentivize our industry partners to remain on schedule and maximize 
the Navy's return on investment. To reduce costs in general, our 
shipbuilding strategy leverages existing designs and proven 
technologies as much as possible. The Department has also refined its 
internal 2-Pass/6-Gate review process to ensure requirements are set 
early and balanced against cost, and that this balance is visible and 
managed throughout the acquisition process. The Navy has strengthened 
acquisition policy to improve program oversight, control cost growth, 
and more effectively monitor contractor performance. The ability to 
build and deliver our fleet on time and under cost continues to require 
the combined effort of and collaboration between the Navy, the 
Congress, and the shipbuilding industry.

    Mr. Palazzo. Many people have questioned the relevancy of 
amphibious operations in this day and age. Could you please give us 
your opinion on the relevancy of amphibious operations in the modern 
era?
    General Mills. Amphibious flexibility is the greatest strategic 
asset that a sea based power possesses. The inherent flexibility and 
utility of amphibious forces are not widely understood, as evidenced by 
the frequent and mistaken direct correlation between the term 
amphibious operations and mental images of World War II marines 
assaulting Tarawa or Iwo Jima. In fact, in the last 20 years the Navy-
Marine Corps team has conducted well over 100 amphibious operations of 
various types. The majority of these involved humanitarian assistance/
disaster response (HA/DR) or noncombatant evacuations and defense of 
U.S. diplomatic posts during periods of host nation unrest occurring in 
permissive or uncertain environments. A smaller number involved 
operations in openly hostile environments to project or withdraw U.S. 
or partner-nation forces. Not included in the last 20 year tally--
because they were only recently codified as a type of amphibious 
operation within joint doctrine--are the numerous military engagement 
and security cooperation activities routinely conducted by amphibious 
forces. Given the National Security Strategy's emphasis on engagement, 
these operations are becoming increasingly prominent.
    Regardless of the type of amphibious operation conducted, they 
generally involve overcoming diplomatic, geographic, and/or military 
challenges to access. Regular employment of amphibious forces in 
uncertain and austere environments where access is challenged is 
chronicled by over 50 amphibious operations conducted since Sept. 11, 
2001.
    Rapid action is the critical enabler in these operations requiring 
immediate response regardless of access afforded. Organic capabilities 
such as well decks and flight decks, billeting, communications, 
medical, dental, messing, and command and control all combine to 
increase the utility of amphibious forces. More importantly, an 
amphibious force can loiter off shore indefinitely providing valuable 
time for diplomatic efforts to unfold; complementing diplomacy with 
demonstrated resolve. Amphibious forces can be task organized to the 
mission and threat, and scaled to bring only those capabilities ashore 
necessary for mission accomplishment. In a security environment 
characterized by uncertainty, operating from the sea provides a degree 
of flexibility, force protection, and freedom of action not realized by 
traditional ground force lay-down.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
